<html>
<title> - NATIONAL INTEREST ELECTRIC TRANSMISSION CORRIDORS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           NATIONAL INTEREST ELECTRIC TRANSMISSION CORRIDORS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________

                            Serial No. 110-7

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                      U.S. GOVERNMENT PRINTING OFFICE
35-770 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 




             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 25, 2007...................................     1
Statement of:
    Kolevar, Kevin, Director, Office of Electricity Delivery and 
      Energy Reliability, Department of Energy...................   148
    Tonko, Paul D., Chair, Committee on Energy, New York State 
      Assembly; Bill DeWeese, majority leader, Pennsylvania House 
      of Representatives; Kurt Adams, chairman, Maine Public 
      Utilities Commission; Elizabeth Merritt, deputy general 
      counsel, National Trust for Historic Preservation; Paul D. 
      Koonce, chief executive officer, Dominion Resources, Inc.; 
      and Chris Miller, president, Piedmont Environmental Council    50
        Adams, Kurt..............................................    72
        DeWeese, Bill............................................    59
        Koonce, Paul D...........................................    88
        Merritt, Elizabeth.......................................    77
        Miller, Chris............................................    99
        Tonko, Paul D............................................    50
Letters, statements, etc., submitted for the record by:
    Adams, Kurt, chairman, Maine Public Utilities Commission, 
      prepared statement of......................................    74
    Arcuri, Hon. Michael A., a Representative in Congress from 
      the State of New York, prepared statement of...............    46
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   162
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    11
    DeWeese, Bill, majority leader, Pennsylvania House of 
      Representatives, prepared statement of.....................    61
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................    20
    Kolevar, Kevin, Director, Office of Electricity Delivery and 
      Energy Reliability, Department of Energy, prepared 
      statement of...............................................   150
    Koonce, Paul D., chief executive officer, Dominion Resources, 
      Inc., prepared statement of................................    90
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
    Prepared statement of........................................     4
    Prepared statement of Mr. Holland............................    70
    Merritt, Elizabeth, deputy general counsel, National Trust 
      for Historic Preservation, prepared statement of...........    80
    Miller, Chris, president, Piedmont Environmental Council, 
      prepared statement of......................................   101
    Murphy, Hon. Christopher S., a Representative in Congress 
      from the State of Connecticut, prepared statements of Mr. 
      Murray and Governor Rell...................................    25
    Tonko, Paul D., Chair, Committee on Energy, New York State 
      Assembly, prepared statement of............................    53
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    15
    Wolf, Hon. Frank R., a Representative in Congress from the 
      State of Virginia, followup questions and responses........   131


           NATIONAL INTEREST ELECTRIC TRANSMISSION CORRIDORS

                              ----------                              


                       Wednesday, April 25, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Dennis J. Kucinich 
(chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Waxman, Cummings, 
Tierney, Higgins, Davis of Virginia, and Issa.
    Also present: Representatives Wolf, Murphy, Hall, Hinchey, 
and Arcuri.
    Staff present: Jaron R. Bourke, staff director; Jean Gosa, 
clerk; Nidia Salazar, staff assistant; Auke Mahar-Piersma, 
legislative director, Office of Congressman Dennis J. Kucinich; 
Natalie Laber, press secretary, Office of Congressman Dennis J. 
Kucinich; Jacy Darding, full committee intern; Kristina Husar, 
minority professional staff member; Larry Brady, minority 
senior investigator and policy advisor; Benjamin Chance, 
minority clerk; Darcie Brickner, minority legislative 
assistant; and Bill Womack, minority legislative director.
    Mr. Kucinich. Good afternoon. The Subcommittee on Domestic 
Policy of the Committee on Oversight and Government Reform will 
now come to order.
    Today's hearing will examine the implementation of section 
1221 of the Energy Policy Act of 2005, which is the section of 
law that established new Federal authority for siting new 
electric transmission lines which, in certain cases, will 
preempt State and local authorities.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition. So ordered.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record. So ordered.
    Without objection, we will be joined on the dais by Members 
not on our committee for the purpose of participating in this 
hearing and asking questions of our witnesses. So ordered.
    We welcome the ranking Republican, Mr. Issa. Thank you, Mr. 
Issa, for being here.
    Today this subcommittee will examine the Department of 
Energy's implementation of section 1221 of the Energy Policy 
Act of 2005 and its implications for public land, private 
landowners, our Nation's energy infrastructure, and the 
environment.
    The Energy Policy Act of 2005 was signed into law by 
President Bush in October 2005. I opposed the act because it 
did not provide any vision for a sustainable energy future. 
Rather, it was a grab bag of government giveaways to the energy 
industry. It weakened our environmental laws and the laws that 
provide for public input while doing almost nothing to help 
wean this Nation off of our dangerous dependence on oil or 
addressing the major challenge of global climate change.
    Section 1221 amounted to only a few pages in the 1,700-page 
energy bill, but it was intensely debated within Congress. A 
host of organizations opposed the provision, including State 
Governors, utility commissioners, and environmental groups. Now 
that section 1221 is being implemented, the American people are 
on the verge of discovering why its enactment was so 
controversial.
    Section 1221 was designed to make it easier for electric 
companies to construct high-voltage electricity transmission 
lines over the objection of private property holders and State 
and local communities. As the law is written, a State may have 
little or no ability to determine whether a transmission line 
goes through one of its State parks, a historic battlefield, 
land protected by conservation easements, or private land.
    Energy companies may be able to apply for permits directly 
with the Federal Government, which can grant them imminent 
domain authority to construct transmission lines through 
private property.
    This new Federal authority for siting electric transmission 
lines is exercised through a three-step process. First, the 
Department of Energy creates a transmission congestion study. 
This study is used to determine whether parts of the country 
are suffering from electric transmission congestion.
    I should point out that the term congestion, which is used 
by the Department and the act, does not necessarily mean that 
an area is facing reliability concerns or that demand will 
exceed supply within the area. It merely means that additional 
transmission lines would be used if they were available. 
Basically, if an energy company says it has plans for new 
transmission lines, that pretty much satisfies the definition 
of congestion, and no recourse through alternatives need be 
made.
    Second, once the Department of Energy conducts its 
congestion study section 1221 authorizes, the Department can 
designate regions of the country that experience congestion as 
national interest electric transmission corridors. Remarkably, 
there is no statutory limitation on the size of these 
corridors, and, as we will hear today, a corridor could contain 
nearly an entire State.
    Finally, once the Department of Energy designates a 
corridor, any proponent of a transmission line can propose a 
project within one of these corridors. Within these corridors, 
energy companies have special rights to bypass a State and seek 
permits for a project directly from the Federal Energy 
Regulatory Commission [FERC], here in Washington, DC. Once 
approved by the FERC, the energy company can go to Federal 
court and force a private land owner to sell a right-of-way 
through their property for the project.
    To date the Department of Energy has completed the first 
step in this process. In August 2006, the Energy Department 
released a congestion study that found that a number of regions 
of the country faced electric transmission congestion. These 
regions included southern California, the Atlantic coastal area 
from metropolitan New York through northern Virginia, New 
England, the Phoenix-Tucson area, the Seattle-Portland area, 
and the San Francisco Bay area.
    As part of the implementation process, the Department of 
Energy also asked organizations whether any region of the 
country should be given early corridor designation. A number of 
proposals were submitted from energy companies and their 
organizations. The proposals included requests for corridor 
designations in California, Delaware, Maryland, Ohio, New 
Jersey, New York, Virginia, and West Virginia. These requests 
could lead to a designation of corridors covering large 
populations of States like Pennsylvania, Maryland, and New 
Jersey.
    The Department of Energy has refused at this point to 
discuss the particular corridor designations that it may be 
making. However, it has stated that southern California and the 
Atlantic coastal area are the regions most likely to receive 
them. Now, with the release of the congestion study and the 
Department's pending designations, the large number of groups 
have once again raised a host of concerns about the law, 
itself, and the Department of Energy's implementation of it. 
They include: Whether the Department of Energy is taking into 
account the protection of national parks, State parks, 
conservation easements, and historical sites like battlefields 
when determining where an electric transmission corridor should 
be designated; whether the Department of Energy is considering 
the effects of a corridor designation on the private property 
rights of land owners; whether the Department is considering 
the environmental impact of corridor designations; whether the 
Department of Energy is considering alternatives to 
constructing new electric transmission lines like the land side 
management, distribution generation, and energy efficiency; 
whether the Department has adequately considered the actual 
benefit utility consumers would receive from new transmission 
lines; and, finally, whether the Department has adequately 
consulted States to determine if corridor designation will 
adversely impact the energy policies the State has developed.
    I hope that, starting today, Congress will begin to get 
some answers.
    Finally, I would like to thank the ranking member of the 
full committee, Mr. Davis, for suggesting today's hearing. His 
State is on the front line of this issue, although many other 
States are probably not very far behind.
    I look forward to hearing from each and every witness today 
and I thank the witnesses for being here.
    At this time I would recognize for purposes of making an 
opening statement the ranking member, Mr. Issa.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Issa. And I would yield to the ranking member of the 
full committee if I could, please.
    Mr. Kucinich. Mr. Davis, the ranking member of the full 
committee, is recognized.
    Again, Mr. Davis, the committee wishes to express to you 
our appreciation for the work that you have done in setting up 
this hearing.
    Mr. Davis of Virginia. Thank you, Chairman Kucinich. Let me 
thank you for working on a bipartisan basis to hold today's 
oversight hearing on the implementation of section 1221 of the 
Energy Policy Act of 2005. We call it EPAct.
    At its core, this section of the act focuses on the 
creation of national interest electric transmission corridors 
in areas of the country where DOE has determined that there is 
a critical need. Many have raised concerns about this section 
of the act, and I understand both Mr. Hinchey and Mr. Wolf have 
introduced legislation to address this problem, and I support 
their efforts. But ultimately we are here today to exercise our 
committee's oversight responsibility on the provision that is 
potentially problematical.
    Last summer DOE designated two critical congestion areas, 
which include the Atlantic Coast area from metropolitan New 
York southward to northern Virginia, and southern California. 
Based on this finding, DOE is in the process of designing and 
designating draft national interest electric transmission 
corridors. The significance of this designation comes from the 
new authority that the EPAct granted to the Federal Energy 
Regulatory Commission [FERC].
    Utility companies in NIET corridors may apply to FERC, 
which now has so-called back stop authority to approve new 
transmission lines if the State process fails for a number of 
reasons.
    My concerns over section 1221 of the Energy Policy Act 
springs from two sources: federalism/State autonomy issues, 
and, second, the mind set with which we approach energy 
management challenges.
    With respect to State autonomy, States have been in charge 
of the approval process of new transmission lines from the 
beginning. State statutes are set up to balance the interest of 
their citizens, who are equally consumers of energy, land 
owners, and consumers of the environment.
    For example, in my home State, when the Corporation 
Commission reviews an appreciate of a new transmission line, 
they are bound to consider not just need, but also that the new 
transmission line will minimize adverse impacts on the scenic 
assets, historic districts, and the environment of the affected 
area. If a utility applies to FERC, will these issues be given 
due consideration?
    With respect to managing the challenges associated with the 
energy generation distribution, I would first point out that we 
in Virginia have an agency problem. According to a 2006 DOE 
report, the mid-Atlantic region of the country requires 
billions of dollars of investment in new transmission 
generation and demand side resources over the next decade to 
protect grid reliability.
    I want to take a moment to reflect on that statement. 
According to the U.S. Department of Energy, there are three 
elements involved in solving grid congestion: transmission 
lines, new generation, and demand side management. Clearly, 
there is not a single solution to my State's energy problem. 
New transmission lines are not a silver bullet. In fact, before 
they released their national electric transmission congestion 
study, this here, they released a study on the benefits of 
demand response and electricity markets and recommendations for 
achieving them.
    As the title suggests, this study evaluates the benefits of 
investing in demand side management. Demand side management 
refers to the management of consumer demand in response to 
supply conditions. For example, demand side management 
solutions work with electricity customers to reduce their 
consumption at critical times or in response to market prices. 
Customers would then shed loads in response to a request by 
utility or market price conditions. Under conditions of tight 
electricity supply, demand response could significantly reduce 
the peak price and, in general, electricity price volatility. 
In fact, the State of California effectively used demand side 
mechanisms to cope with last summer's heat wave.
    The bottom line is that sound energy policy is and should 
continue to be a significant priority of both the States and 
the Federal Government. Reliable and affordable energy is a key 
component of economic development; however, opportunities for 
innovation and conservation cannot and should not be ignored.
    It is appropriate to require that solutions such as demand 
side management and conservation be part of the package of 
alternatives considered when planning for expected energy 
needs. It is also important that the Federal Government not 
needlessly usurp the longstanding authority and role of States 
on this issue. The 2005 Energy Policy Act understood and shared 
this goal. I hope we can leave here today with a better 
understanding of the way that the Federal Government can work 
with States to solve energy congestion problems while 
respecting State autonomy.
    I look forward to hearing today's witnesses and I yield 
back.
    [The prepared statement of Hon. Tom Davis follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman.
    At this time I would like to recognize Mr. Waxman, who is 
the chairman of the full committee. Henry Waxman of California 
has set very high levels for Government accountability, and we 
are honored to have him chair the full committee.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing.
    Developing sensible energy policies has always required a 
collaborative approach between the Federal, State, and local 
governments and the constituents they serve. Since the light 
bulb's invention, States have been the lead on siting 
infrastructure like high-voltage transmission lines. State 
governments are closer to the people impacted by these 
facilities and know how they want their communities to grow.
    That is one of the reasons I was very concerned about the 
Energy Policy Act of 2005. Rather than being respectful of the 
traditional Federal/State relationship, the Energy Policy Act 
trampled on it by creating a legal mechanism for energy 
companies to end run the States and get practically any 
transmission project, no matter how ill-considered, approved 
here in Washington, DC.
    By someone who was deeply involved in that legislation, I 
would like to take a moment to explain how we got where we are 
to day.
    In May 2001, the White House released a national energy 
policy developed by Vice President Cheney. This plan proposed a 
new Federal imminent domain authority to provide energy 
companies with rights of way for proposed electric transmission 
projects. In October 2001, the Electric Utility Lobby testified 
in support of the proposal. They testified that, in the 
preceding 5 years, electric utilities had exercised State-
authorized imminent domain more than 400 times. Now they wanted 
imminent domain at the Federal level, and they wanted State 
governments preempted whenever a State materially altered an 
energy company proposal.
    In short, they wanted their projects approved without a 
delay, and they wanted the force of government behind them to 
assure that private property rights did not stand in their way.
    Over the next 4 years, the administration worked hard to 
give the energy companies exactly that policy. For example, on 
April 10, 2003, the Executive Office of the President issued a 
statement in strong support of the new Federal imminent domain 
authority. Pushed by both the White House and industry, 
Congress tried to enact the provision. Democrats raised 
objections to the new Federal imminent domain policy. We 
attempted to offer a floor amendment to strike the provision in 
both 2003 and again in 2005. Unfortunately, the House Rules 
Committee prevented these amendments from being considered on 
the House floor.
    Remarkably, Congress simultaneously dealt with another 
imminent domain issue in a completely different way. In June 
2005, just 2 months after the House had voted to create this 
sweeping new imminent domain authority, the Supreme Court 
decided Kelo v. City of New London. This opinion upheld the 
States' authorities to use imminent domain in certain 
circumstances. The response from Congress was swift and 
furious. Republican leadership immediately brought legislation 
to the House floor to limit the Supreme Court decision. They 
decried the opinion as an attack on private property rights.
    In reality, the Kelo decision was far less intrusive than 
the energy provisions passed by Congress 2 months earlier. That 
is why this hearing is so important. Instead of more rhetoric 
about property rights, this subcommittee is taking a hard look 
at the real-world impacts of the provisions. No Member of 
Congress wants their District to suffer blackouts, but this 
isn't about blackouts; it is about respecting State 
authorities, ensuring adequate protections for cultural, 
historic, and environmental values, and making sure private 
property rights are protected against needless abuse.
    I look forward to the hearing and the testimony of today's 
witnesses.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you, Mr. Waxman.
    The Chair recognizes Mr. Issa. And did you want to make the 
announcements?
    Mr. Issa. Yes. Mr. Chairman, I would like to ask unanimous 
consent that Members who are not members of the committee be 
allowed to sit on the dias and make opening statements and ask 
questions at this time.
    Mr. Kucinich. So ordered.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I will submit my entire opening statement for the record 
and just paraphrase one small element.
    I want to associate myself with both of the previous 
opening statements, all three of them. This is a piece of 
legislation that cuts two ways. I think all of us want to make 
sure that real congestion and real impediments to interstate 
commerce be, in fact, dealt with, and dealt with by the Federal 
Government. At the same time, the legislation previously passed 
now gives us some questions about whether or not perhaps there 
were some additional items that were left out of it, concerns 
of States, States' rights, private land use.
    I would say in my own home State of California, and 
particularly in southern California, where what we call the 
sunrise path, or the path that runs near our Mexican border, 
one of the paths that has historically been one of the 
shortfalls that has led to power outages, one of several in the 
State, is of concern because it only has a choice of going 
through either various Federal land, including tribal land, or 
going through a large State desert park. Most of these areas 
are not inhabited and most of these areas do not have any 
significant vegetation above about the 1 foot level.
    Having said that, finding a path has been a vexing problem, 
and often the State has found itself in an odd situation. It 
has found itself wanting to protect the empty space for all, 
while, in fact, having the alternative be the space which has 
people in it, and so we have paths in California, neither of 
which are acceptable for some reason, all of which are stalled, 
that, in fact, are considering tearing down houses rather than 
being visible perhaps 60 or 90 miles from some area of natural 
wilderness. That makes for a very strange situation that exists 
in California. I don't pretend it exists in every State in the 
Union. Certainly we are not looking at battlefields and highly 
populated areas in the case of most of ours, but I do look 
forward to this hearing and to follow-on legislation.
    With that I yield back, Mr. Chairman.
    [The prepared statement of Hon. Darrell E. Issa follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. The Chair recognizes Mr. Murphy.
    Mr. Murphy. I thank the chairman for holding this hearing 
and allowing other Members to sit as part of our panel today.
    Mr. Chairman, I hope that this hearing, in part, will 
expose two fallacies with regard to our current policy through 
FERC and the siting of transmission lines and other energy 
facilities that we have witnessed in the State of Connecticut.
    With the chairman's indulgence, I would like to submit for 
the record testimony of M. Jodi Rell, our Governor, today.
    Mr. Kucinich. Without objection.
    Mr. Murphy. Her testimony mirrors the thoughts of many of 
us from Connecticut, that these two fallacies that hopefully we 
will be able to overcome, in part through this hearing and in 
part through our discussions going forward: one, that our 
Federal Regulatory Agency can be an effective substitute for 
local processes. As Chairman Waxman has already said, there is 
simply no way for a removed Federal agency to be able to 
substitute for the concerns on the ground in a State like 
Connecticut, or any other State in this Nation. There is no way 
for this agency to know the true scope of the environmental 
issues, the private land rights issues, and the public safety 
issues that surround the siting of a very complex and large 
energy facility.
    In Connecticut we have had particular experience with this 
one. We have made simple requests of the Federal Regulatory 
Agency to come to Connecticut and hold a simple public hearing 
in order to air out many of the concerns that local landowners 
have. We have been denied. It is simply hard, in the face of 
that refusal, to understand how we can have the substitute for 
that kind of local State oversight.
    The second fallacy is that there is some divergent State 
and Federal interest upon the issue of electricity 
transmission. We in Connecticut understand the difficulties 
that confront our system and we are just as interested in 
making sure that we have the transmission capacity as the 
Federal Government is. We struggle with that issue just as they 
do here in Washington, and we believe that our State approval 
process will strike the right balance between local concerns 
and the concerns of our electricity grid.
    With that, Mr. Chairman, I am very pleased to be part of 
this hearing and very interested in being part of the 
legislative effort that goes forward today.
    [The prepared statements of Mr. Murray and Governor Rell 
follow:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. Thank you, Mr. Murphy.
    The Chair recognizes Congressman Wolf.
    Mr. Wolf. Thank you, Mr. Chairman, for having the hearing. 
I am not a member of the committee and would like to submit 
questions at the end if I may, but I want to thank you. I also 
want to thank Mr. Issa and Mr. Davis for seeking this hearing.
    I will work with Mr. Hinchey on his bill, with these other 
bills, as I told him, to see what we can do to pass them.
    I want to associate myself with all of the comments that 
were made. Being an invited guest, I will not have a formal 
statement, but thank you for the hearing, thank you for the 
intensity, and thank you for the commitment. We will do 
everything we can to deal with this issue.
    I yield back.
    Mr. Kucinich. Thank you, Mr. Wolf.
    Mr. Higgins, member of the committee.
    Mr. Higgins. Thank you, Mr. Chairman.
    I ask for unanimous consent to enter Mr. Arcuri's statement 
into the record.
    Mr. Kucinich. So ordered. Thank you very much.
    [The prepared statement of Hon. Michael A. Arcuri follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    M. Kucinich. The Chair recognizes Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, and thank you both our 
ranking members for allowing Members who are not on this 
committee to attend and to ask questions.
    I will just briefly say that in my District there are many 
questions being raised and many lawn signs being put out on 
virtually every home in the affected areas around the New York 
Regional Interconnect [NYRI] path, which has been proposed 
under this section.
    There is a lot of concern about imminent domain seizure for 
profit by a largely foreign-owned company, the owners of which 
are not readily available to the public, and them seeking a 
court decision of being a public benefit and thereby having 
imminent domain rights, a private entity to seize private 
property for profit. I think that is something a step further 
than what we saw in the New London case, which was the city of 
New London seizing, municipality seizing by imminent domain 
private property and then turning around and selling it for use 
for private property.
    This is a direct transfer from private to private, which I 
don't really think the majority of the American people would 
like to enter into lightly, especially because we are having a 
debate about energy right now in this country. It is very 
important.
    We are really just starting to have this debate, and the 
more decentralized the sources are, the more renewable 
decentralized alternative sources come up, be they low-head 
hydra sites or wind, which is growing rapidly in New York, or 
other power generation that are not a single huge generating 
point at one place and then the need to transfer that power to 
a municipality far away where a huge amount of consumption is 
centralized.
    The mayor of New York, for instance, just proposed this 
weekend in his Sustainable New York City Proposal, a concept of 
rooftop wind, which anybody who has been on the roofs of the 
big buildings of New York or the Windy city of Chicago, for 
instance, would know that as the air mass accelerates up over a 
mountaintop or a collection of buildings it increases in speed, 
and that may be a place that wind can be harvested.
    The more we do those kinds of things that generate power 
where the power is being consumed, the less need there will be 
for this sort of radical seizure of private land to transmit 
electricity.
    So I appreciate the opportunity to listen and to ask 
questions and thank you again, Mr. Chairman.
    Mr. Kucinich. Thank you very much, Mr. Hall.
    Mr. Issa, your unanimous consent?
    Mr. Issa. Yes, Mr. Chairman.
    I ask unanimous consent that a statement from the Edison 
Electric Institute be put into the record. As you know, they 
are the preeminent analysis organization as to energy here in 
Washington.
    Mr. Kucinich. So ordered.
    The Chair recognizes Mr. Hinchey. Welcome. Thank you for 
being here.
    Mr. Hinchey. Thank you very much, Mr. Chairman. I very much 
appreciate your holding this hearing, and I want to express my 
appreciation to you for inviting others of us to attend it with 
you. I think that you are focusing on a very important subject 
here.
    As you know, any aspect of energy is a critically important 
issue for all of us to deal with, and it has to be dealt with 
in the most intelligent and respectful and effective ways.
    The Energy Policy Act of 2005 has become one of the most 
controversial pieces of legislation that has come before the 
Congress recently. It was recognized as such at that time by 
many of us, particularly those of us who voted against it.
    I am just going to mention one aspect of that bill, which 
is the focus of this attention, and the legislation which I and 
Mr. Hall and my two friends from Virginia have introduced, 
which has been mentioned earlier, and that is the ability that 
this legislation gives to ignore very important constitutional 
and legal provisions in our country, States' rights, and the 
rights of private property.
    One of the things that this bill does is it allows the 
Secretary of the Department of Energy to provide energy 
companies the ability to circumvent State authority by applying 
for permits to build electric transmission lines and to do so 
directly with the Federal Energy Regulatory Commission, 
ignoring completely the fact that constitutionally and legally 
these kinds of issues ought to be handled by the State and by 
localities.
    So if a State would withhold approval for a transmission 
line permit for 1 year because they felt that transmission line 
permit had to be looked at carefully and understood, if they 
had to do it for more than 1 year, then the energy company 
could go directly to FERC and get the authority to put this 
transmission line right through the State, even though the 
State had not approved it.
    If the State requires the mitigation of the project that 
the applicant believes makes the project economically 
unfeasible, they can go directly to the Federal Government and 
get the right to construct these corridors.
    Or if the utilization does not serve end-use customers in 
that State, well, they can just circumvent the State, build the 
transmission line on the basis of the authority given to them 
by the Federal Energy Regulatory Authority on the basis of 
actions previously taken by the Secretary of Energy.
    The act offers no limitation on where a Federal 
transmission corridor can be designated; therefore, National 
and State parks, land protected with conservation easements, 
historic battlefields, and all private property, even school 
yards, could be subject to the siting of these new electric 
transmission lines.
    Additionally, all private lands would be subject to the new 
Federal imminent domain authority for approved projects, when 
imminent domain authority has been traditionally and lawfully 
the right of State and local governments.
    So the issue that we are dealing with today, Mr. Chairman, 
is a very critical one, and we are all very grateful to you for 
the opportunity to give it the kind of airing that it ought to 
get in the context of this hearing.
    I thank you very much.
    Mr. Kucinich. I thank the gentleman.
    If there are no additional opening statements, the 
subcommittee will now receive testimony from the witnesses 
before us today. I am pleased to have such a distinguished 
panel of witnesses here to address section 1221 of the Energy 
Policy Act.
    On Today's first panel, our subcommittee is pleased to have 
the following witnesses: Assemblyman Paul Tonko, who is a 
lifelong resident of the city of Amsterdam, NY, and has 
represented the 105th District in the New York State Assembly 
since April 1983. Welcome, Representative Tonko. Representative 
Tonko currently serves as the chairman of the Committee on 
Energy for the New York State Assembly.
    Next, Representative H. William DeWeese. Representative 
DeWeese, welcome. Representative DeWeese has represented the 
50th District in the Pennsylvania House of Representatives 
since 1976. He has served as Speaker of the Pennsylvania House 
of Representatives and currently serves as majority leader.
    We are glad to have you here, sir.
    Mr. DeWeese. Thank you.
    Mr. Kucinich. Next we will hear from Chairman Kurt Adams. 
Mr. Adams has served as chairman of the Maine Public Utility 
Commission since 2005. Prior to that he served as chief legal 
counsel to Maine Governor John Baldacci. Thank you for being 
here, Mr. Adams.
    Elizabeth Merritt is the deputy general counsel for the 
National Trust for Historic Preservation, where she has served 
as in-house counsel for 24 years. The National Trust for 
Historic Preservation is a private, nonprofit organization 
chartered by Congress in 1949 to further the historic 
preservation policies of the United States.
    And we have Paul Koonce. Mr. Koonce serves as chief 
executive officer of Dominion Energy, which is responsible for 
electric and gas transmission and storage operations for 
Dominion Resources, Inc.
    Thank you very much to Ms. Merritt and Mr. Koonce for being 
here.
    Finally, Mr. Miller, Chris Miller, has served as president 
of the Piedmont Environmental Council since 1996. He is 
responsible for the overall management and strategic planning 
for the Piedmont Environmental Council, which had been very 
successful in protecting Virginia's landscape through 
conservation easements.
    Welcome to all the committee members. It is the policy of 
the Committee on Oversight and Government Reform to swear in 
all witnesses before they testify, so I ask the witnesses if 
they would please rise.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
answered in the affirmative.
    I am going to ask that each of our witnesses now give a 
brief summary of their testimony, and to please keep this 
summary about 5 minutes in duration. Bear in mind that your 
complete written statement will be included in the hearing 
record.
    At this time the Chair recognizes the distinguished 
representative, Mr. Tonko.

 STATEMENTS OF PAUL D. TONKO, CHAIR, COMMITTEE ON ENERGY, NEW 
      YORK STATE ASSEMBLY; BILL DEWEESE, MAJORITY LEADER, 
 PENNSYLVANIA HOUSE OF REPRESENTATIVES; KURT ADAMS, CHAIRMAN, 
 MAINE PUBLIC UTILITIES COMMISSION; ELIZABETH MERRITT, DEPUTY 
GENERAL COUNSEL, NATIONAL TRUST FOR HISTORIC PRESERVATION; PAUL 
 D. KOONCE, CHIEF EXECUTIVE OFFICER, DOMINION RESOURCES, INC.; 
  AND CHRIS MILLER, PRESIDENT, PIEDMONT ENVIRONMENTAL COUNCIL

                   STATEMENT OF PAUL D. TONKO

    Mr. Tonko. Good afternoon, Chairman Kucinich, Chairman 
Waxman, Ranking Member Issa, Ranking Member Davis, and members 
of the subcommittee. Might I also express my appreciation for 
the attendance of good friend and former colleague, Congressman 
Hinchey and Congressman Higgins, and also a good partner in 
government, Congressmember Hall. It is a pleasure to be before 
you, Mr. Chairman.
    I have submitted written testimony and will provide for you 
a consolidated version.
    I also point out that my turf is the city of Schenectady, 
the electric city.
    My name is Paul Tonko and I am a member of the New York 
State Assembly and Chair of the Energy Committee, a role in 
which I have enjoyed serving for the past 15 years.
    During my tenure, few issues have given rise to the concern 
and sense of disempowerment than the potential exercise of 
Federal preemption regarding transmission line siting and what 
it has created. There is little confidence at this moment that 
Federal Government officials, who are far removed from the 
physical and socio-economic location of local proposals, will 
be able to fully appreciate the environmental, economic, and 
social impacts of long-range, high-voltage transmission lines.
    The purpose of my testimony today is to support a reversal 
of those provisions of the Energy Policy Act of 2005, which 
permits the Federal Energy Regulatory Commission to finally 
determine the siting of electric transmission lines. This newly 
conferred regulatory power may hold hostage the ability of 
States to craft and implement energy policy best suited to the 
States' needs and policy goals.
    What is needed at the State level is the freedom to take a 
holistic approach to energy policy, an approach which looks at 
all the supply side and demand side options available without 
fear that such policies, programs and decisionmaking could be 
trumped or thwarted by private interests seeking alternate 
Government intervention.
    New York is certainly one of the battleground States in 
this particular arena. New York has already been host to a 
transmission line proposal which has sought early access to the 
provisions of section 1221 of the Energy Policy Act. At an 
Assembly Energy Committee hearing regarding this proposal, the 
committee received testimony from your colleague, Maurice 
Hinchey, here today, who was able to speak authoritatively on 
the dynamics which resulted in the provisions of the Energy 
Policy Act which you are now examining.
    In that testimony, Congressman Hinchey reiterated his 
concern that provisions of the new act were intended to erode 
State and local jurisdiction over proposed projects. Thus, it 
appears that these Federal policies may not have been drafted 
with the protection of the public interest in mind.
    Given New York's experience with creating energy policy 
behind closed doors, I am well aware of the consequence of 
creating energy policy that does not meet the multiple needs of 
all consumers and energy service suppliers. More to the point, 
these provisions should never have been incorporated into 
statute, and the time to repeal these provisions is now.
    Many times elements of emerging State energy policies are 
the result of the absence of Federal Government policies and 
programs to do the same. For example, in New York and the 
northeast, more broadly, the Regional Greenhouse Gas 
Initiative, a regional compact amongst 10 northeastern States, 
has been initiated and is poised to establish a cap in trade 
program to control emissions of carbon dioxide, primarily from 
electric-generating plants.
    While the possibility that energy prices may increase as a 
direct result of capping of carbon dioxide, other energy 
policies are being crafted and implemented to help consumers 
better control their energy use, thereby reducing their energy 
costs, and possibly bringing down overall energy prices in the 
long run.
    Individual energy policies are only effective when they are 
implemented as part of the comprehensive energy plan. Outside 
factors, or possibly wild cards, can only disrupt the orderly 
implementation of complementary energy programs which have been 
designed according to the needs of the system, a forecast of 
prices from which appropriate incentive levels are set, and the 
market potential for specific technologies in that given 
location.
    Last week New York's Governor Eliot Spitzer announced just 
such a comprehensive energy plan. This strategy is premised on 
the achievement of a 15 percent reduction in energy consumption 
by 2015. The goals of this new policy are to simultaneously 
lower New York's high cost of energy, while expanding the 
supply of cleaner generation sources. Further, implementation 
of this policy requires that all resources be enlisted to 
achieve these goals, balancing demand side options with supply 
side options.
    This type of energy plan will also benefit the widest 
spectrum of economic interests, and not merely give preferred 
access to very large capitalized corporations.
    Certainly the policies outlined by Governor Spitzer will 
provide an opportunity for new transmission lines to be 
constructed in New York State; however, a transmission line 
which does not comport with the policy goals of the 
comprehensive energy plan and is focused solely on maximizing 
profit opportunities to the project developer could jeopardize 
the overall plan.
    Transmission line proposals which do not comport with 
comprehensive State-level planning should not be given new life 
through Federal Government preemptive power.
    In conclusion, I would like to thank the subcommittee for 
this opportunity to present this testimony and respectfully and 
strongly urge a reversal of the policies embodied in section 
1221 of the Energy Policy Act of 2005. Repeal that provision in 
my message on behalf of the Energy Committee I chair.
    I will be happy to answer any questions that members of 
this subcommittee may, indeed, have.
    Thank you.
    [The prepared statement of Mr. Tonko follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Representative Tonko.
    Representative DeWeese, thank you.

                   STATEMENT OF BILL DEWEESE

    Mr. DeWeese. Thank you very much, Mr. Chairman, 
Congressmen, Congresswomen, staff. My name is Bill DeWeese, and 
I certainly appreciate the opportunity to appear before the 
members of the Subcommittee on Domestic Policy and provide some 
comments on the implementation of section 1221 of the Energy 
Policy Act.
    Parenthetically, I would like to thank Congressman Hinchey 
for his negative vote. I think it was pregnant with common 
sense and a respect for States' rights.
    I offer these remarks not only as a member of the 50th 
Legislative District, which encompasses all of Green County, 
parts of Fayette and Washington County in southwestern 
Pennsylvania, but as the current majority leader of the 
Pennsylvania House.
    I have 10 quick points, two or three sentences each.
    No. 1, as it stands today, FERC, the Federal Energy 
Regulatory Commission, can use its imminent domain power to 
locate and construct a transmission line, regardless of what 
our Pennsylvania Public Utility Commission finds and rules.
    No. 2--and obliquely I referred to this when I mentioned my 
compliment to Congressman Hinchey--this is an unprecedented 
usurping of States' rights. As a little boy, the term ``States' 
rights'' had a vulgar and sometimes malignant connotation, but 
this is an absolute State right, and our Pennsylvania Public 
Utility should not have its powers arrested.
    No. 3, we in Pennsylvania understand the need for reliable 
power and are willing to do our part for the PJM grid. We know 
that the American consumers and companies up and down the east 
coast need electricity.
    No. 4, we are willing to do what we can to allow the 
Federal Government to be involved, but we don't want it to 
impose its long arm and its will into our back yards, into our 
green spaces, and into our lives.
    No. 5, if the Federal Government is allowed to dictate on 
this issue, where does it end? Will they come up to Green 
County and tell us where we are going to put a nuclear power 
plant or a hydroelectric plant or a windmill farm?
    No. 6, if section 1221 of the Energy Policy Act of 2005 is 
not repealed--and I certainly join my colleague from the Empire 
State and request that it is repealed--we will necessarily 
strip the States of their right to govern their own future when 
it comes to citing and construction of high-powered 
transmission lines. Public participation and regulatory review 
be damned.
    No. 7, the following is a mere snapshot of Pennsylvania's 
economic, cultural, historical, and natural and scenic 
resources. We have about 2,300 and 23,000 acres of farmland 
that has been preserved through our Commonwealth's agricultural 
and land preservation program. We have 120 State parks on 
283,000 acres, 20 State forest on over 2 million acres, 300 
State game lands on over approximately 1.5 million acres. 
Pennsylvania State forest land is one of the largest expanses 
of public forest land east of the Mississippi River. We have 
Gettysburg National Park. We have Valley Forge National Park, 
Fort Necessity National Battlefield. We have 42 other places in 
Pennsylvania that are listed on the National Historic Record.
    No. 8, under the guidance of Governor Edward G. Rendell, 
Pennsylvania has become one of the first States to implement an 
alternate energy standards portfolio.
    No. 9, nobody has convinced me or any of my constituents 
that the proposed power line is in the public interest. What I 
have become convinced of is the fact that at the end of the day 
Pennsylvania and the Pennsylvania Public Utility Commission 
should make these determinations, not the Federal Energy 
Regulatory Commission.
    No. 10, and finally, there is no doubt in my mind that 
section 1221 of the Energy Policy Act should be repealed post-
haste.
    With that, I will continue my efforts to oppose all efforts 
to designate the National Interest Electric Transmission 
Corridor and any projects, Mr. Chairman, seeking to locate and 
construct interstate high-voltage transmission lines in the 
Commonwealth of Pennsylvania.
    Thank you very kindly.
    [The prepared statement of Mr. DeWeese follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Mr. DeWeese, for that 
very powerful statement.
    The Pennsylvania PUC chairman also has concerns. Without 
objection, I will put into the record the statement of Wendell 
Holland, chairman of the Pennsylvania Public Utility 
Commission, addressed in remarks to this committee.
    Without objection, thank you.
    [The prepared statement of Mr. Holland follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Next we are going to hear from Mr. Adams, 
State of Maine.
    Welcome.

                    STATEMENT OF KURT ADAMS

    Mr. Adams. Thank you, Chairman Kucinich, members of the 
Subcommittee on Domestic Policy. My name is Kurt Adams, and I 
am the chairman of the Maine PUC. I am very pleased to be here 
before you today to discuss the implementation of section 1221.
    Section 1221 directed the Secretary of Energy to conduct a 
congestion study, and that will be most of what I talk about 
today.
    The congestion study was to be a nationwide study of 
electric transmission congestion. The study was released on 
August 8, 2006. It is supposed to be renewed every 3 years.
    The Secretary may designate any geographic area 
experiencing electric energy transmission capacity constraints 
or congestion that will adversely affect consumers as a 
national interest corridor.
    Section 1221, however, requires the DOE, before it 
exercises this authority, to consult with affected States in 
conducting the congestion study. Only after consulting with the 
affected States is the DOE to issue the mandated congestion 
study.
    As is clear from the appendices to the congestion study, 
DOE never contacted or met with any Maine regulator or 
government representative in the process of conducting the 
study.
    The study found Maine's New Hampshire interface and Maine's 
interface with New Brunswick to both be contested and 
identified the Maine/New Hampshire interface as one of the top 
40 congested interfaces in the eastern interconnect.
    DOE did contact the Maine PUC on October 6th, and, after 
communications from our delegation, had a subsequent meeting 
with the PUC and Maine delegation staff in December 2006, but 
these after the fact meetings cannot cure DOE's lack of 
consultation that was required by statute prior to the release 
of the congestion study.
    The congestion study identified several congested pathways 
in New England and identified the region as a congestion area 
of concern. It is worth noting that the New England Governors 
Conference and the New England Council of Public Utility 
Commissioners also objected over the lack of consultation, and, 
to the best of my knowledge, there was not a single Governor, a 
single PUC, or a single elected or government official from any 
New England State consulted by the DOE consistent with the law.
    The DOE's failure to follow the simple requirements of 
section 1221 mean that the congestion study, as it currently 
stands, cannot be used as the basis for designations of 
corridors in Maine or New England. The congestion study is 
fundamentally legally flawed as to that region.
    In addition, getting to the merits of the congestion 
study--and I am tempted to start making this seem like a PUC 
hearing room, but I fear everyone will fall asleep--we do very 
detailed analyses in PUC hearing rooms. We look very carefully 
at what is behind load flows. We look very carefully at 
reliability questions. That is what we do for a living.
    When we looked at the congestion study, there is 
insufficient support for the study's finding of congestion at 
the New Brunswick/Maine border, and at the Maine/New Hampshire 
border, and I will just touch on this briefly, but it is 
concerning to us.
    We individually and through NECPUC, our regional regulators 
association, and NARUC, our national association, have sought 
access to the load flow studies, input data, and modeling used 
by DOE and its consultants in arriving at the conclusions in 
the study. However, it does not appear that DOE has released 
all of the inputs and modeling data it relied upon to make its 
findings of the congestion study. What it has released does not 
appear to support its conclusions. Release of all of the data 
is important, because the DOE's conclusions in the study 
conflict with other publicly available information about 
congestion in New England.
    For instance, ISO New England, our RTO, our grid operator, 
the experts in maintaining reliability in our region, do not 
believe that the Maine/New Hampshire interface is meaningfully 
constrained. They have said so to the DOE.
    In addition, although not addressed in the report, even 
though it is publicly available information, two factors will 
greatly reduce or eliminate congestion from New Brunswick to 
Maine during the study timeframe. There is a new transmission 
line being constructed between Maine and New Brunswick as we 
speak, and it is going to be energized very soon. That new line 
will increase transfer capability by 300 megawatts over an 
interface that currently appears not to be congested.
    The second widely known fact is that in New Brunswick a 
nuclear power plant will out for service for 2 years. That will 
also relieve pressure on the Maine/New Brunswick interface and 
reduce flows that typically go from New Brunswick into New 
England.
    This information was readily available to the DOE, but it 
was not or does not appear to have been considered in the 
congestion study. At this moment we don't know.
    It is worth noting, in closing, that both of those facts 
would have been easily ascertainable had the DOE consulted with 
the Commission.
    Thank you.
    [The prepared statement of Mr. Adams follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much for being here, Ms. 
Merritt. Please continue with the testimony.

                 STATEMENT OF ELIZABETH MERRITT

    Ms. Merritt. Good afternoon, Mr. Chairman and members of 
the subcommittee. I am Elizabeth Merritt, deputy general 
counsel for the National Trust for Historic Preservation, and 
we really appreciate the opportunity to testify before you 
about section 1221 of the Energy Policy Act and the designation 
of national interest electric transmission corridors.
    We are particularly concerned that the Department of Energy 
and other Federal agencies involved in implementing the act 
should comply with the National Environmental Policy Act and 
section 106 of the National Historic Preservation Act prior to 
designating these national corridors. Section 106 is the law 
that requires Federal agencies to take into account the effects 
of their actions on historic properties, in particular, prior 
to making decisions that could harm them. Section 106 is 
implemented through a consultation and review process that 
seeks alternatives to avoid, minimize, and mitigate adverse 
effects on historic properties.
    Unfortunately, the Department of Energy has made it very 
clear that it does not intend to comply with section 106 or 
with NEPA prior to designating any corridors under section 
1221. In our view, this is wrong, and we think Congress should 
clarify its intention that the agency should be conducting 
these reviews now, not after corridor designation has already 
occurred.
    As you summarized, Mr. Chairman, the designation of 
national corridors will have draconian results, including the 
potential effect of overriding or preempting reviews by State 
and local governments and by other Federal agencies. If a State 
regulatory board doesn't approve an application for a power 
line in the designated national corridor within 1 year, the 
Federal Government can take control of the review process and 
approve the project, itself, even if the State has denied the 
application for legitimate reasons under State law or has 
requested the consideration of alternatives and mitigation 
measures that the applicant would prefer not to include.
    Most disturbing, section 1221 authorizes the broad use of 
Federal imminent domain power to advance these projects to 
construction. In other words, national corridor designation 
will virtually guarantee the approval of any proposed 
transmission lines within the corridors. As a result, we 
believe it will be impossible to ensure any meaningful 
consideration of alternatives after those corridors have been 
designated. That is why it is so important for NEPA and section 
106 review to occur now, before those corridors are locked into 
place.
    I would also like to summarize a few of the types of 
historic and cultural resources that are at risk and the ways 
in which these resources are especially threatened by the 
visual impact of a major power line.
    The map prepared by the National Park Service which is 
attached as the last page of our testimony--and I also brought 
a larger poster copy of the map--shows that a wide variety of 
our Nation's most significant public historic places are in 
close proximity to these proposed transmission corridors that 
are currently being considered. These resources include 
historic battlefields, rural landscapes, historic districts, 
and other places from our Nation's past that still retain their 
authentic setting.
    These areas derive their significance and their ability to 
convey the story of our history in large part from their visual 
context. These are places that offer members of the public the 
opportunity to take a step back in time in order to understand 
our Nation's heritage by seeing the world through the eyes of 
those who lived in an earlier age.
    It is important to understand that in most cases harm to 
historic places can be even more difficult to mitigate than 
harm to environmental resources. Historic places are unique, 
authentic, and irreplaceable. A historic battlefield cannot be 
moved. It cannot be recreated like a wetland can. It cannot be 
planted or bred, like an endangered species.
    Many of these historic battlefields and landscapes have 
sweeping views that are highly significant. Visual intrusion 
into those views cannot be avoided by shifting a power line a 
little to the left or a little to the right within the 
designated corridor. The massive infrastructure that is 
associated with these power lines cannot be camouflaged by 
planting trees to shield the view. Once the corridor is 
designated, these visual impacts will be unavoidable and 
irreparable.
    I also want to specifically mention the impact of the 
proposed corridors on national heritage areas. As you can see 
from the Park Service map that we have attached to our 
testimony, many of the proposed corridors would cut right 
through the heart of our national heritage areas. In contrast 
to the National Register of Historic Places, these areas are 
designated by Congress. They are areas where historic, 
cultural, and natural resources combine to form a cohesive, 
nationally distinctive landscape. However, the land is not 
acquired by the Federal Government because these areas have the 
imprimatur of congressional designation, they have been very 
effective in cultivating heritage tourism for community and 
economic development.
    The Alliance of National Heritage Areas estimates that 
every year 68 million people visit our country's 37 national 
heritage areas, and during those visits they spend more than 
$8.5 billion a year. Based on the enormous economic benefits 
for heritage tourism, we are concerned that local communities 
in these heritage areas may suffer economically, not just 
environmentally, if massive power lines are allowed to harm the 
historic areas and assets that draw these visitors in the first 
place.
    Beyond these resources, which are nationally significant 
and often publicly owned, the transmission projects may also 
harm thousands of other significant historic properties, 
including local historic districts, landscapes protected by 
conservation easements, and privately owned historic properties 
whose owners have relied on Federal, State, and local legal 
protections that could be overridden by section 1221.
    Many States have sophisticated regulatory agencies that 
review major transmission projects, and the legislatures have 
developed carefully crafted policies for balancing the 
considerations of energy distribution and the protection of 
sensitive resources. National corridor designation threatens to 
override and preempt these important State policies.
    In sum, the National Trust is very concerned about the 
ambiguities and the excesses of section 1221 of the Energy 
Policy Act and the way it is being implemented by the 
Department of Energy. We are especially disturbed that the 
Department does not intend to comply with NEPA or section 106 
of the National Historic Preservation Act prior to designating 
any national corridors, and the impact of this approach could 
be the future approval of major power lines without fully 
considering alternatives or ways to minimize the adverse 
consequence.
    We urge Congress to amend section 1221 of the act in order 
to resolve the concerns that we and others have highlighted 
today.
    Thank you.
    [The prepared statement of Ms. Merritt follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much.
    The Chair recognizes Mr. Koonce.

                  STATEMENT OF PAUL D. KOONCE

    Mr. Koonce. Thank you Mr. Chairman, members of the 
subcommittee, fellow Virginians Congressmen Davis and Wolf. I 
appreciate the opportunity to be here today.
    My name is Paul Koonce, and I am executive vice president 
of Dominion Resources and CEO of Dominion Energy. Dominion 
Energy operates the natural gas and electric transmission, 
natural gas storage, and L&G operations of Dominion Resources, 
one of our Nation's largest energy providers.
    Dominion supports the Energy Policy Act of 2005, including 
those sections that call for Government to establish NIETC 
corridors. In the wake of the August 2003, cascading blackout 
from the midwest to New York State, the entire country realized 
that we had to improve our Nation's energy infrastructure. Our 
economy and security simply cannot tolerate such events.
    The Energy Policy Act of 2005 recognized this need and 
established two important principles among many. First, that 
reliability is no longer voluntary. The Energy Policy Act of 
2005 established nationwide reliability standards and backed 
those standards with substantial penalty authority, some 
penalties as high as $1 million per day per violation. Second, 
in areas where national interest are at stake and cross-border 
State permitting stymied, the Energy Policy Act of 2005 
provides Federal backstop siting authority.
    While Dominion has not sought such authority, we support 
Congress' actions to protect and improve this vital network. 
The interconnected network of power plants, wind turbans, and 
transmission lines are an asset and strength to our entire 
Nation's economy. The NIETC designations and the Federal 
regulatory siting process, once it is established and tested, 
have the potential to improve the Nation's reliability.
    I stress potential is the operative word here. We must not 
pre-judge the outcomes, regardless of which side of the debate 
we are on.
    Last week Dominion filed an application with the Virginia 
State Corporation Commission to construct a 65-mile, 500 KB 
line to serve the greater northern Virginia region. Our six-
volume filing for this project totals more than 1,000 pages and 
presents overwhelming evidence of need. It contains independent 
reports that validate the need, expert testimony on the load 
forecasting model use, and detailed information on the proposed 
route.
    Dominion has stated repeatedly that we intend to use our 
State siting process, but we recognize our industry and 
technology are changing. Wind does not blow uniformly, and in 
many cases natural gas and coal handling and transportation 
infrastructure does not exist to support power plant 
development in many metropolitan areas. I believe the Energy 
Policy Act of 2005 recognized this reality and has attempted to 
address our changed circumstance.
    Turning to customers, Dominion encourages customers to 
conserve energy when they can and use it wisely. The company 
offers a variety of energy and money-saving resources to 
encourage its customers to conserve. We supported House bill 
3068, recently passed by the Virginia General Assembly. This 
legislation guides Dominion away from retail choice, and in 
doing so makes it our responsibility to do more.
    After years of promoting retail choice and giving retail 
providers access to time of use rates and smart metering, 
expecting that retail providers would aggregate customers and 
provide load management incentives, the market solutions did 
not achieve the level of success we had all hoped. This 
lackluster result, combined with the rate shocks witnessed in 
Maryland, Illinois, and Texas, is why Dominion was a leader in 
the discussion and moved toward enactment of House bill 3068.
    In sum, Dominion is a company dedicated to serving its 
customers, and doing so responsibly. Dominion is a company 
dedicated to the State siting process, and Dominion is a 
company that recognizes the importance of the interconnected 
electric grid and the potential role the Department of Energy 
and the Federal Energy Regulatory Commission may play to ensure 
our Nation's reliability.
    I appreciate the opportunity to be here today. I look 
forward to answering your questions.
    [The prepared statement of Mr. Koonce follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. We appreciate you being here too, sir.
    Mr. Miller, thank you.

                   STATEMENT OF CHRIS MILLER

    Mr. Miller. Chairman Kucinich and members of the committee 
and Congressman Davis and Congressman Wolf, you have been 
wonderful leaders in this issue in Virginia. Thank you for the 
opportunity to testify.
    As president of the Piedmont Environmental Council, I have 
spent a decade on issues of land use planning, regional land 
use planning, and land conservation, and in that exercise, 
working with a professional staff, with thousands of land 
owners, and with the communities in the nine-county region that 
is almost the size of the State of New Jersey, we have learned 
a lot about a lot of policies, including energy policy, and 
about the potential impacts of transmission siting on those 
local, State, and Federal policies.
    I think I am here today to present a perspective from the 
land owner and local level. The result of implementing 1221, 
which creates this new power of Federal imminent domain, 
affects hundreds of thousands of land owners in Virginia and 
millions across the United States.
    The graphic that you see on the screen is the combined 
corridor request from PGM Interconnection, a regional 
transmission organization operating in 11 States and 
representing about 400 utilities. This is what the utilities of 
the mid-Atlantic area requested. Dominion is part of that 
process, in fact, shares the committee that put together this 
proposal.
    The implications are enormous. Every land owner, every 
jurisdiction within that area, which includes almost the entire 
State of Delaware--does include the entire State of Delaware, 
Maryland, most of Pennsylvania, parts of West Virginia, and 
Virginia now face the prospect of Federal preemption over an 
undefined set of potential corridors.
    Very specifically, PGM requested that authority be 
continued for at least 10 years, and that parts of it be 
expedited. In fact, they asked the Department of Energy to rule 
on these corridors before the end of 2006, December 31, 2006, 
and requested that a specific line-to-line that we are dealing 
with in Virginia be given special status no later than August 
31, 2006.
    Those of us who live on the ground are concerned that the 
process by which this policy is being implemented is not 
protective of public interests and the balancing of the need 
for clean and reliable energy and the need to protect national 
and State resources, priorities that we have had long 
established.
    The process thus far has been described I think adequately 
by the representatives from New York, Pennsylvania, and 
Maryland, but from the perspective of our organization, when we 
learned of a potential corridor designation in Virginia we were 
the first to notify Governor Tim Kaine, we were the first to 
notify the Federal elected officials, we were the first to 
notify State elected officials, we were the first to notify 
local elected officials, and certainly the first to notify 
affected land owners. So just the basic idea of these corridors 
being designated, no one who is going to be affected was part 
of the process.
    When we asked for meetings with the Department of Energy we 
were told that they could not meet. Once they closed the 
comment period, October 10th, they refused to meet with 
representatives of PEC and have continued to state that a 
meeting with representatives of PEC would violate a prohibition 
on ex parte contact. So it raises real questions about how 
stakeholders are supposed to discuss the alternatives to 
transmission, discuss the mitigation that potential 
transmission corridors may require.
    Let me talk a little bit about the types of resources that 
are implicated, national resources. This is a perspective from 
Virginia. We have probably the highest concentration of Civil 
War battlefields. There are eight Civil War battlefields 
designated by the National Park Service as worthy for 
protection within the study area created by the Dominion and 
Allegheny request, by PGM's request. We have the highest 
concentration of nationally recognized rural historic 
districts. We are the view shed of the national scenic trail, 
the Appalachian National Scenic Trail. There are over 200,000 
acres of land within this area that are visible from the 
Appalachian Trail, one of the most visited parts of the 
National Park System. We have 37 individual historic sites, 
including the homes of Chief Justice John Marshall of the 
Supreme Court, and a host of other important historic sites to 
both national, State, and local history.
    All of this area is part of a proposed national heritage 
area, the Journey Through Hallowed Ground, which Congressman 
Wolf and Senator Warner and Members of the delegations from 
Maryland and Pennsylvania have supported the Congress 
approving, and these proposed lines would cut right through the 
heart of that proposed heritage area.
    Let me argue this. Please refer in our testimony to the 
letter from David McCullough and James McPherson, probably the 
most recognized historians in American history. What they call 
for, what many energy leaders call for is a different process 
if we are going to go forward with national interest corridor 
designation, and that process would call for two things: 
openness, transparency; and a programmatic EIS.
    Why is that so important? This is a decision which has the 
potential to shift the market for energy in a dramatic way. 
Transmission lines will bias our future energy decisions in a 
very significant way, and now is the time, before designation 
takes place, to look at all alternatives, look at the 
environmental impacts, look at the impacts on other national 
interests, national priorities, and be sure the that balancing 
is done before designation, not after it is complete.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much for your testimony, Mr. 
Miller, and thanks to all members of the panel.
    We are now at the point where members of the committee will 
begin with questions.
    The Chair will recognize for 5 minutes--each Member will 
have a 5-minute round of questions--the gentleman from New 
York, Mr. Hinchey.
    Mr. Hinchey. Thank you, Mr. Chairman.
    I want to express my appreciation to all of you for your 
very competent and informing testimony. We very much appreciate 
all of your being here.
    I would like to ask a question of Mr. Tonko, who is a dear 
friend and a colleague of mine formerly in the State House of 
Representatives in Albany, NY.
    Paul, you are one of the most informed and reliable people 
on this issue of energy that I know. I think that your 
importance of being here is very considerable.
    One of the main provisions of this act, as has been pointed 
out here over and over again, is 1221, which preempts the right 
of imminent domain and preempts State authority. Do you think 
it is possible for the States to maintain a reliable electric 
system without this kind of preemption, and States should be 
giving energy companies the right of Federal imminent domain?
    Mr. Tonko. The first point I would make is it is absolutely 
possible for States to do this work. We have been doing it for 
decades, if not a century, whereby States have maintained 
systems, albeit deregulation has entered into the mix. But I 
think it is important to recognize that, A, we have done it, we 
have a track record, B, no one has to tell me or a State that 
we have a congestion corridor. We know that. We are working 
with it, but we are developing comprehensive energy policy, 
especially with the onset of the new administration.
    It is a mix of phenomena that take hold in that 
comprehensive plan, from renewable energy to energy efficiency, 
demand side management, conservation, perhaps upping some 
generating facilities that have been not operating, and yes, 
perhaps transmission lines. But my concern about the preemption 
from the Federal level is that, once you develop a strategy and 
a plan you can then have that intercepted, interrupted by 
Federal action, which may not be the outcome we need.
    Where we need transmission, to what degree, how it is 
incorporated with renewables, how it blends with the strategy 
for efficiency, those are all important factors that will be, I 
think, not part of the mix if the Feds intercept and do their 
decisionmaking outside the context of that plan.
    So I think, because of our track record, because we didn't 
need anyone to tell us we had a congestion highway, because we 
need comprehensive strategies, and I would add to that if there 
are any incentives the Feds need to provide, it is to encourage 
interstate planning, creating the compacts where there is a 
better bit of understanding about how the States can deal with 
their inter-relationships. That is far more comprehensive and 
valuable than this heavy hand entering in, and perhaps at an 
inopportune time or without the discipline that is required to 
live in accordance with a given State's comprehensive energy 
policy.
    Mr. Hinchey. Thank you very much.
    There is also the idea that the only way to deal with the 
electricity needs is through the establishment of these massive 
transmission lines, but we know that there are other ways to 
deal with this. Would you comment for us on other aspects of 
this? What about more broadly distributed generation, energy 
efficiency? Are those the kinds of things we ought to be 
focusing attention on?
    Mr. Tonko. Absolutely. The aggressive nature of the plan 
that has been presented, to which I alluded in my testimony, by 
our new Governor is speaking to just that. I think there is an 
untapped resource in distributed generation. I think it is 
something that will get great focus. We need to think outside 
the box.
    I think that what we have in New York State is an 
opportunity to utilize our natural resources in a way that 
produces great energy outcomes, and to also emphasize 
renewables. Wind will become, I think, very much part of the 
solution. And we have said in testimony that we need to regard 
energy efficiency as an energy resource. Just as they drill and 
well various items out there, we need to tap into that resource 
and consider it a major player, a major solution in the outcome 
that allows us to avoid perhaps some of the additional 
transmission activity that won't serve useful.
    We have had contrary opinions as to whether or not more 
transmission opportunity actually serves us well in some cases. 
It may cause some additional disturbances or re-route 
disturbances in a way that may not be the kind of outcome we 
want for any of our States.
    Mr. Hinchey. Thank you, Paul.
    Mr. Tonko. Thank you, sir.
    Mr. Kucinich. I thank the gentleman.
    The gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. And thanks, again, for 
this hearing. I think it is very, very important that we look 
at legislation as soon as possible after it begins impacting 
our States.
    Mr. Tonko, I would like to ask you a question sort of in 
the abstract, because I think, as a legislator, and in the case 
of New York, it is a good what if. New York is between several 
States. If New York is under the in state commerce clause, if 
New York for some reason their failure to build transmission 
line was causing problems in Connecticut, and Connecticut came 
to the Federal Government and said, ``you know, we have done 
everything we can but we can't get our transmission line from X 
to Y,'' would you look into this and preempt other States, 
would you say that was within the historic--forget about this 
legislation, per se, but within the historic rules of the road 
similar to the interstate road system, would you say that in a 
sense there are some cases in which the FERC might 
appropriately come in and make sure something happened for 
interstate commerce reasons?
    Mr. Tonko. Right. Congressman, I agree it could be set into 
that historic context, but, more importantly, being done with 
comprehensive strategy, with interstate cooperation. That is 
the best assistance we could hope for from our Federal partners 
in government.
    Earlier Congressman Murphy talked about his concerns, and 
immediately coming to line was the cross-sound cable from 
Connecticut to Long Island, which was decided by FERC, and that 
decision was deemed to be a decision that was made on an 
emergency basis, which was later rerouted as a permanent 
solution.
    Now, I would suggest to you that outcome was not the best 
outcome for Connecticut, and I think that if you had encouraged 
through Federal policy intergovernment comprehensive planning, 
where we can avoid the need to step in and usurp State rights 
and bring and build a plan, constantly updating it and 
implementing it, we are in a new world of energy need out 
there, and I think that the interdependency that we all share 
as States--I look at the major impact from the blackout of 2003 
in August 2003 befalling New York State, and the lack of 
maintenance of the infrastructure in a neighboring State caused 
disruption in our State.
    So the States need to have the reliance of Federal 
Government to bring about that cooperation, but not a heavy 
hand that tells you when to do things.
    Mr. Issa. But I think you hit the point. As a New Yorker, 
you have asked for that. You have said that we, in fact, 
somebody has to make sure that something going wrong in 
Cleveland doesn't turn your lights off. So the very case that 
is the balance, the reason that we may have to mend this don't 
end it, is the lights going off in the northeast; that, in 
fact, the system was not robust enough and, as a Federal 
Government, when you say we have to be fair, wouldn't it be 
fair to say that we have to give the States a chance to propose 
an interstate compact that they believe meets the test, and if 
they fail to do so the Federal Government still has a role on 
behalf of any one of the States or on behalf of the commerce?
    And I am saying this because I am very concerned that this 
hearing today could potentially cause people to say we will 
just scrap what we have and hope that the States agree. I think 
New York's lights going off shows that decades of loose 
agreements, all of which were designed to benefit each State, 
did tend to have every other State not looking at excess 
robustness to protect anyone other than themselves.
    Mr. Tonko. Congressman Issa, I think that you can 
accomplish these goals by working within the bounds of the 
existing law and encouraging the kind of----
    Mr. Issa. This is existing law.
    Mr. Tonko. Well, within the context of the law that guided 
the process prior to preempting the process by encouraging the 
kind of planning that is essential. I think what was taken was 
a leap to the extreme without offering----
    Mr. Issa. My time is limited, so I am just going to do one 
final one, and it can be for another member of the panel that 
would like to weigh in.
    If we require planning and if that planning is not executed 
on, wouldn't you all agree that, if you make the plans, the 
Federal Government holding you to those plans or to your 
accomplishing those plans is still within Federal jurisdiction 
under interstate commerce?
    Mr. Tonko. I would think there is a role to be played to 
make certain that plans--I think, very importantly, plans need 
to be developed, updated, and implemented, and if there is a 
role to encourage that without usurping the States' rights and 
without perhaps derailing regional compact, comprehensive 
plans, or individual State comprehensive plans, let's do it. 
But this I think supersedes in a way that is very disruptive.
    Mr. Issa. I just wonder if anyone can give me a ``yes'' to 
the question I asked.
    Mr. Kucinich. The gentleman's time has expired. I want to 
acknowledge that, but also go ahead and answer the question.
    Mr. Issa. I don't want to ask another question. If there is 
anyone on this panel today that can give me an answer of 
``yes'' to the Federal Government having that role if the 
compact fails to occur or if one or more States fail to provide 
their share of it. I will leave it for the record, I think. I 
don't see anyone, unless Mr. Adams wants to answer.
    Mr. Adams. Your question is prior to the Energy Policy Act 
of 2005? Absent the Energy Policy Act of 2005 does the Federal 
Government have the authority under the----
    Mr. Issa. No, should we do it constitutionally is the 
question, because we are considering, if we get rid of this 
act, do we scrap the whole idea that if one State doesn't meet 
the requirements, even if agreed, for another State, that the 
Federal Government should just sit on the sidelines and watch 
the lights go off in New York.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Mr. Tonko, did you want to add anything?
    Mr. Tonko. No. I will stand with the answer I gave.
    Mr. Kucinich. Yes. The gentleman's time expired about 2 
minutes ago.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Kucinich. But let me, with unanimous consent, just ask 
a question or engage in a colloquy with my good friend.
    The question that was raised with respect to the 2003 power 
failure, which began in northern Ohio, the District I 
represent, if I remember correctly, the occasion of that power 
failure was not so much the lack of robustness of the system as 
it was the failure of maintenance by First Energy, which is our 
local power company.
    Mr. Issa. And for the chairman, I completely agree that we 
could look at an initial cause. What has been discovered, as I 
understand it from our work in the last Congress, was that the 
reason that the failsafes never stopped--in other words, 
Cleveland was allowed to go completely black, and the rest of 
the country should have stayed up. You should not be only as 
strong as one engine failing.
    So, as much as we know why Cleveland failed, the system was 
not robust enough to keep one after another from being pulled 
down, and that is where the interstate commerce question comes, 
because, Mr. Chairman, I am very aware that there are failures 
in 2005 act. The question is what is the legitimate role, and 
hopefully under your leadership we will define the limits of 
that role but not fail to meet that requirement of interstate 
commerce. When does the Federal Government have an appropriate 
role? I think the Cleveland to New York blackout is the best 
example where we as Federal officers, if we don't make sure the 
States do their job so that that network is robust enough, we 
will be held accountable.
    Mr. Kucinich. You know, maybe the gentleman and I could 
cooperate in producing another hearing on the relationship 
between the causative factors of the 2003 blackout as it 
reflects on some of these issues and other issues relating to 
capacity. I think that could be quite constructive.
    I am going to go to Mr. Hall right now for purposes of his 
asking questions.
    We are in a series of votes soon.
    Mr. Hall. I will make it quick.
    Mr. Kucinich. No, please, you get 5 minutes. Proceed.
    Mr. Hall. Thank you, Mr. Chairman, and thank you to all of 
our witnesses.
    Representative DeWeese, I would like to ask you, regarding 
the Allegheny Energy requests of March 2006, to designate a 
national interest electric transmission corridor they call the 
TRAIL project, Trans-Allegheny Interstate Line project, which, 
if it is approved, will give them power of imminent domain from 
Maryland through the tip of northern Virginia across western 
Virginia through southwest Pennsylvania and into Ohio, which is 
a remarkable stretch of imminent domain. Two questions about 
this. First of all, for a project of this size, how long would 
you expect the normal State permitting process, the 
environmental impact statements or what have you, to take?
    Mr. DeWeese. I do not know, but my speculation would be a 
1\1/2\ to 2 years. My colleague from Maine would probably be 
more precise in extrapolating a Maine or a Pennsylvania Public 
Utility Commission dynamic. I only know that Wendell Holland, 
the chairman of the Pennsylvania Public Utility Commission, has 
expressed to Chairman Kucinich and the membership some of his 
reservations and comments, but I do not know the exact number 
of months that it would take.
    Mr. Hall. I could ask everybody at the table, are you aware 
of any such size projects that comes in through the normal 
environmental review process at under a year? I am not. I mean, 
in New York, I am familiar, as Mr. Tonko is.
    Mr. Tonko. Right. I think the 1-year timeframe is a very 
threatening situation. There needs to be flexibility. It is 
very murky. The definition of when the clock starts ticking is 
very murky. I think that it can be a very troublesome bit of 
nomenclature in the law that really might undo a very valuable 
project.
    Mr. Hall. Or, as one might put it, it is sort of a gone to 
the head of the State government saying don't screw up too many 
roadblocks or ask too many questions, don't drag the process 
out, or else it is going to get kicked out of your hands and up 
to FERC. Yes, sir.
    Mr. Miller. Our concern about the 1-year clock is that in 
many States the process of discovery, getting the data, 
acquiring the information, analyzing impacts is structured as 
an adversarial process. I mean, you have to ask the question, 
you have to do the interrogatories, you have to depose the 
witnesses, you have to review the testimony.
    For example, in the case of the 1,000-page filing by 
Dominion, all of the flow data was submitted in a sealed 
document, so it is not available to anyone to review. They are 
assertions and studies that back up assertions by making other 
assertions, but there is not public access, until the 
intervention process is triggered by the State Corporation 
Commission, to the actual flow data so that they can be 
independently verified.
    Similarly, as you have heard, at the Federal level there 
hasn't been access to the underlying data to make sure the 
conclusions were drawn fairly and with consideration of 
alternative perspectives.
    That process, by its very nature, can take more than a 
year. And it is interesting that Dominion in this case, while 
claiming not to plan on using the corridor designation and 
Federal imminent domain, has requested that the State rule on 
their application within a year of the date of filing, which is 
exactly the unusual characteristic of the Federal law.
    Mr. Hall. Thank you.
    Chairman Adams, can you tell me exactly what the Department 
of Energy has refused to share with your State?
    Mr. Adams. There are two categories of information. One, 
information when we look at what they provided, they provided, 
after a fair amount of complaining from NARUC, NECPUC, and a 
variety of individual States, they eventually posted on their 
Web site some certain assumptions that they gave their 
consultant, but in peeling that back the assumptions did not 
appear to be the whole picture and they just don't add up to 
the result, and a lot of the information we get, for instance, 
in a PUC hearing room that would lead us to conclusions about 
things like reliability or congestion we just don't see there.
    But, more troublesome, our public advocate issued a Freedom 
of Information Act request on the DOE, and there was an e-mail 
chain amongst DOE staffers talking about forwarding 
confidential information among themselves delivered to them by 
PGM, the New York ISO, and ISO New England.
    We have asked for that confidential information, and it has 
not been provided. DOE has actually said that they don't have 
it.
    So, from our perspective, from Maine's perspective, the 
dots just don't quite line up to the conclusions that they have 
come to, and that is what we don't understand. There does 
appear to be at least some information that they relied upon 
that either has been lost or misplaced or is no longer in DOE's 
possession to provide to us.
    Mr. Hall. Thank you, Chairman Adams.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    Mr. Davis.
    Mr. Davis of Virginia. Mr. Koonce, thanks for being with 
us. Let me just start with you.
    I understand Dominion Power has filed its application with 
the State Corporation Commission last week to move ahead with 
the transmission line in Virginia. Is the intention to work 
through and abide by the decision of the State Corporation 
Commission with respect to the Meadowbrook Loudoun 500 KB 
transmission line?
    Mr. Koonce. Yes, Congressman, it is. We have had great 
success working with our State Corporation Commission. Every 
line that we operate today has been approved by that State 
Corporation Commission. We don't see that relationship 
changing.
    Mr. Davis of Virginia. I mean, there has been some concern 
in the community that the State process is now just a mere 
formality for utility companies located in the NIET corridors, 
but that is not your intention?
    Mr. Koonce. No, sir, that is not our intention. We have 
great confidence in our commission to weigh the issues, analyze 
the load flow studies, look at the need, make that 
determination, and provide the pathway for the company to move 
forward.
    Mr. Davis of Virginia. Now, in your application, which I 
understand is lengthy----
    Mr. Koonce. That is correct.
    Mr. Davis of Virginia [continuing]. You make the case for a 
new power line. Can you just briefly highlight some of the 
needs--you did some in your testimony--in terms of the areas 
that are impacted to where the power would be going?
    Mr. Koonce. Yes, sir. We filed an application for a 65-mile 
line. It is a 500 KB system, moving from the western part of 
the State, traveling along an existing transmission line 
corridor, ultimately terminating at the Loudoun substation, 
which is just west of the Dulles International Airport. The 
line that we propose will transfer about 3,400 megawatts of 
energy into what has been described by many as the fastest-
growing region in the eastern seaboard. Our load data certainly 
reflects that. It is a rapidly growing area.
    The transmission corridor that we have identified will be 
residing beside an existing 500 KB system, so there will be 
areas where we will be able to stay within the preexisting 
footprint. For example, where we cross the Appalachian Trail we 
have proposed to change the pole structures so that the two 
power lines can coincide within the existing footprint. There 
will be areas where we will have to acquire an extra 100 feet 
so that we can put the line adjacent to an existing 
information. And then there is much of the route that we won't 
have to take any additional right-of-way, the right-of-way is 
already suitable to this transmission line.
    Mr. Davis of Virginia. You are obviously aware of the 
public comment. You have done your best to minimize, assuming 
the need for it, minimize the taking of additional right-of-
way, is that----
    Mr. Koonce. Yes, Congressman. We have had five open house 
meetings where we have tried to show people how we would route 
the line, the structures that we would use. We have had over 
100 meetings with community planning boards, chambers of 
commerce, and have participated in over 300 media interviews. 
We have done everything that we could to try to engage the 
community, and I think through the Piedmont Environmental 
Council and Virginians for Sensible Energy we, I think, have 
engaged the communities, and I think we have a good filing that 
reflects that.
    Mr. Davis of Virginia. You certainly have them engaged. 
There is no question.
    Mr. Miller, let me just ask you, do you think there is 
overwhelming evidence for the need for the proposed 
transmission line in northern Virginia? Do you share the same 
conclusions at this point?
    Mr. Miller. At this point we don't. The evidence we have 
been able to evaluate up to this point reaches very different 
conclusion, which is that, as NERC found in 2005, Virginia is 
adequately served, both generation and transmission, and that 
the need is being generated outside of northern Virginia and 
actually part of a much greater region than the larger PGM 
interconnection.
    The question then becomes: is this the best place to locate 
a line to serve that interregional need, and are there other 
solutions?
    One of the interesting things about the Dominion filing is 
that they attribute the amount of demand reduction that would 
be necessary to obviate the need for this line. Remember that 
they are using rather unusual contingency scenario where they 
close down Opossum Point and a line fails, so it is sort of a 
double whammy, not just a transmission issue.
    But, in addition to that, they then say that, in order to 
avoid building a transmission line, northern Virginia would 
have to reduce demand by 2,800 megawatts when, in fact, the 
area of demand that this line would be serving and the 
reliability that it would be serving includes all of Maryland 
and the District of Columbia.
    So if you spread that demand reduction over that area, it 
is less than 10 percent reduction for the actual service area. 
The point being, the kinds of initiatives that Maryland, that 
Governor Kaine has initiated for the State agencies, Government 
Rendell, Governor Corzine have all proposed would actually 
reduce demands from levels where these transmission lines may 
not be necessary.
    Our concern is that the analysis process, the data that is 
held as confidential and proprietary doesn't allow for any 
independent analysis of whether the conclusions reached and 
asserted actually match reality on the ground or accommodate 
potential future changes on the generation and demand 
management side.
    Mr. Davis of Virginia. But the State Corporation will be 
able to get all that, won't they?
    Mr. Miller. If they have time. But, as I was trying to say 
before, this is not a process where the application is only 
deemed sufficient when all of the information is made 
available. It is, unfortunately, structured as an adversarial 
process, and so the answers may not come in the first 6 months, 
8 months, 9 months, twelve months.
    Mr. Davis of Virginia. Thank you.
    Mr. Chairman, my time is up.
    I do want to note the presence of John Stirrup, one of the 
Prince William County supervisors that is in the room attending 
to this. We appreciate your being here as well. Thank you.
    Mr. Kucinich. All right.
    Would the gentleman from Virginia yield for a question? Do 
you need more time?
    Mr. Davis of Virginia. I am OK.
    Mr. Kucinich. Sure. OK.
    The Chair recognizes Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chair, and I thank you for 
giving me an opportunity to be here.
    I would like to thank the panel, all of you, for being 
here. Assemblyman Tonko, thank you very much for coming down.
    Assemblyman, in response to one of the questions that my 
colleague from California asked you, do you think that there is 
a distinct difference between seeing to it that the States work 
together to prevent the kind of blackout that we saw on the 
east coast, as opposed to overruling a position that a State 
takes if a State chooses not to allow a corridor and then the 
Federal Government comes in and preempts it?
    Mr. Tonko. I think it is very important for us to bring 
States together in these regional compacts so as to address 
concerns that have already been documented, with the point in 
case being the 2003 blackout. You know, it wasn't about the 
robust issue, it was about communication, it was informing 
another State as to what was coming, and it was about 
maintaining a system as you theoretically had indicated in your 
guidelines. We need to make certain that kind of deliberative 
effort is made.
    There are also concerns. I look at the interrelationships 
or the potential partnerships amongst not only the New York ISO 
but the PGIM and New England ISO where we could develop, I 
think, sound policy and encouragement from the Federal level to 
deal with inter-ISO seams that would address not only economic 
outcomes but reliability potential.
    Mr. Arcuri. My other concern is this. If a State creates a 
policy that it chooses to, for instance, in New York, if the 
policy were to promote generation down State, wouldn't a power 
line such as being proposed create a disincentive to creating 
generation in another place, because what they are doing is 
bringing power from one place to another place rather than 
promoting generation?
    Mr. Tonko. It could. I think, again, in the case of New 
York State there needs to be ample opportunity, total 
opportunity to exercise our strategy as a State with a 
comprehensive plan.
    Mr. Arcuri. I just have one more question. And if the 
strategy of New York was to keep the cost of power down in a 
place like upstate New York where unemployment is high, then 
wouldn't taking power from there, driving up their cost, also 
serve as a disincentive for creating caps?
    Mr. Tonko. It absolutely would be a disincentive, and that 
is why I think the mix of energy efficiency, onsite distributed 
generation, conservation efforts, and renewables are all 
blended into the discussion and the determinations of policy 
within New York, and having some sort of preemptive process 
that could cause price fluctuations for regional outcomes in 
New York State would be a tremendous setback.
    Mr. Arcuri. Mr. DeWeese, do you see that in Pennsylvania, 
as well?
    Mr. DeWeese. I do. I do. I live in the heart of the coal 
fields, and we are honeycombed with the tritus of coal mining 
underground. We are scarred with the results of coal mining on 
top. Our water volume and our water quality are questionable. 
The paradigm that you offered seems to be very, very accurate 
relative to the future.
    Clean coal technology that Ed Rendell and a variety of 
other people in our State and General Electric are advocating 
seems to me a very, very aggressive alternative. We should be 
building plants where population bases exist. The river valleys 
and steel valleys of western Pennsylvania have paid their fair 
share over our national history, and we don't think that we 
should be developing power in those little corners in the red 
in the southwestern part of rural Pennsylvania for the 
burgeoning populations of the east.
    Mr. Arcuri. Thank you very much.
    Mr. DeWeese. Yes, sir.
    Mr. Tonko. Mr. Chairman, if I might again refer to the 
upstate economy, which has been a primary focus, energy costs 
obviously are a tremendous concern. If that comes at the 
expense of outcomes for transmission owners' profit margin and 
reduces our opportunity to revitalize the upstate economy, it 
would be a dreadful outcome.
    I think, again, it has to be looked at in totality. It has 
to be a holistic approach so that we can balance the needs for 
energy within New York State and to do that in partnership with 
neighbors and regional compacts.
    Mr. Kucinich. I thank the gentleman.
    The gentleman from Virginia, Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    In the interest of time, thank you and Mr. Davis for the 
hearing. I want to thank the witnesses.
    If I may, I would like to submit a series of questions for 
the record, if I may.
    Mr. Kucinich. Without objection.
    Mr. Wolf. Again, thank you very much.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman. I just want to assure 
Mr. Wolf and Mr. Davis that you have the complete and total 
cooperation of all of us on the committee relative to your 
concerns.
    I would like to ask some questions, and I understand there 
is a series of votes right now. What it is my intention to do 
is to finish with this panel, unless the Members are looking 
for another round. If you want to do another round of 
questions, let me know and I will ask if the panelists--if 
Members wanted another round of questions, would the panelists 
be able to stay. We will see how far we get.
    I want to start with Mr. Koonce.
    Sir, in your testimony you state that you are committed to 
the State siting process. Would you be able to assure this 
committee that Dominion would, under no circumstances, seek to 
preempt the State process by invoking section 1221?
    Mr. Koonce. Mr. Chairman, I could not make that commitment.
    Mr. Kucinich. Why not?
    Mr. Koonce. We are a company that provides energy and 
interstate commerce in many forms. We operate interstate 
natural gas pipelines. We are constructing a wind farm. And we 
provide energy throughout New England, as well as Virginia. 
There can be circumstances where we believe Federal back stop 
siting authority can have a use.
    I don't know the exact year, but in 1989 American Electric 
Power filed an application in West Virginia to construct a line 
into Virginia. It took them 13 years to construct that line 
because the two States could not reconcile their interstate 
conflicts.
    I would not make a commitment to this company. I would not 
make a commitment to this subcommittee to subject our customers 
to that same type of interstate conflict.
    Mr. Kucinich. Now, in 2002 the American Council for Energy 
Efficiency Economy [ACEEE], released a report that examined 
utility spending on energy efficiency in the year 2000. ACEEE 
ranked the States to determine which States were doing the most 
to become more energy efficient. At the top of that list was 
Connecticut. Connecticut spent just under $20 per capita on 
energy efficiency. At the very bottom of the list was Virginia. 
They found that Virginia utilities were dead last in their 
spending. Virginia spent nothing, zero. The Virginia utilities 
simply made no investment in energy efficiency.
    Now, in 2005 the ACEEE updated their report for the year 
2003. Things have changed. Vermont had moved to the head of the 
pack. Utilities there spent about $30, $28.26 per capita on 
energy efficiency programs. Unfortunately, Virginia was still 
spending zero per capita on energy efficiency.
    Now, Mr. Koonce, according to your testimony today 
Dominion's hands are tied. You seem to be saying you have no 
option but to build a new transmission line, but you can't 
increase the efficiency within your service territory fast 
enough, but it seems your problem has been years in the making. 
Nothing was spent on energy efficiency in 2000, and today you 
have come before this committee explaining that your demand is 
so high that it has limited your options.
    Now, Mr. Koonce, how much did Dominion invest last year per 
capita on energy efficiency?
    Mr. Koonce. Mr. Chairman, that report captured ratepayer-
funded energy efficiency. In 1999 the General Assembly passed 
the Utility Restructuring Act. The purpose of that act was to 
promote, in its widest and complete form, retail competition. 
The 1999 Utility Restructuring Act contemplated that our 
generation, transmission, and distribution entities would be 
functionally separated and ultimately legally separated such 
that retail providers could come into the marketplace and could 
look at peak versus off-peak consumption and could come up with 
creative packages, offerings to customers so that they would be 
economically incentive to engage in demand side management 
conservation.
    Mr. Kucinich. I understand that, but your question is how 
much did Dominion invest last year per capita on energy 
efficiency.
    Mr. Koonce. I don't have that number today. What I can tell 
you----
    Mr. Kucinich. Would you be able to submit that information 
for the record?
    Mr. Koonce. I will seek to do that.
    I will tell you that we still have and continue to work 
with all of our commercial industrial customers, as well as our 
homebuilders. We have certified energy planners. They work 
throughout the year----
    Mr. Kucinich. If you could submit that planning, those 
documents to the committee it would be very helpful. I am sorry 
to interrupt you. We have just got a couple of minutes before 
we have to run and vote.
    Do you know how much you are going to spend this year then 
on energy efficiency? You don't really know?
    Mr. Koonce. Again, the Virginia General Assembly, which is 
charting the course for Virginia, which we certainly support, 
passed a new law this spring. That law required the State 
Corporation Commission to pull together across-State group to 
identify ways to cut energy consumption by 10 percent.
    Mr. Kucinich. What I would like, if you could, sir, is for 
you to submit to this committee, if you have such information, 
how much money Dominion expects to invest per capita on energy 
efficiency, if you could submit that, because in the case of 
Dominion the facts seem to suggest that there has been a 
failure to anticipate the need for energy efficiency ahead of 
time.
    I would like to ask about another important issue and see 
if Dominion is acting proactively. There is no longer any doubt 
that human activities are resulting in global climate change. 
What steps are you taking to reduce Dominion's greenhouse gas 
emissions over the coming decade?
    Mr. Koonce. Mr. Chairman, in 2003 Dominion was the first 
utility to enter into an agreement with EPA. That agreement 
called for our company to spend $1.7 billion to install 
NO<INF>X</INF>/SO<INF>X</INF> pollution control equipment. 
Since that time, we have also acquired the generation assets in 
New England of U.S. generation. We will be spending, in total, 
$2.5 million on fossil plants to improve air quality, both with 
NO<INF>X</INF> and SO<INF>X</INF> pollution control equipment.
    We anticipate that by the year 2015 we will reduce our 
emissions by 70 percent, at the same time increasing plant 
output by 30 percent.
    Mr. Kucinich. Let me just ask you one question before we 
take a break for votes. How about reduction in CO<INF>2</INF> 
emissions?
    Mr. Koonce. We have plants that are in New England, as part 
of the REGI program, where we feel confident that we will be in 
compliance with the regulations as they are promulgated. We 
are----
    Mr. Kucinich. But are you able to state--I am not talking 
about regulation, I am talking about plans to reduce greenhouse 
gas emissions. That is two different things. Can you provide 
this committee with information about the efforts that you are 
taking to provide for reductions in CO<INF>2</INF>?
    Mr. Koonce. Sure, we can provide that information.
    Mr. Kucinich. We appreciate that.
    At this point the Chair is going to call this committee in 
recess for 45 minutes. We have a series of five votes. We will 
return.
    Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    I just wanted to ask one question before we left of Mr. 
Tonko.
    The regional transmission line that is being proposed for 
New York, the so-called New York regional interconnect, it is 
not really regional. It is entirely within the State of New 
York. You have been personally involved in these energy issues 
for a long time, and I know you know them very well. Can you 
describe the New York review process for these transmission 
review facilities and how that process would conflict with the 
1-year arbitrary limitation in section 1221 of this energy law?
    Mr. Tonko. Sure. Basically, we allow for intervener 
activities. There are funds that are set aside for that. There 
is a process that is conducted by our own regulatory group that 
will review comments made by the applicant. I don't think that 
the pressures of a 1-year framework are very helpful.
    When we looked at that whole system, as was asked by 
Congressman Arcuri earlier, it is obviously looking at impacts 
that will befall not only the various communities, the economy, 
the environment, but also looking at the outcomes in terms of 
what ratepayer impact there would be.
    Again, to put that into the context of a bigger picture, 
which is the strategy within New York State, all of those 
aspects are looked at.
    What is troublesome here is we might have activity spurred 
by deal brokering which may empower the applicant to forego 
this process or not--will have the local regulator feel as 
though they are at risk or threatened by this process, because 
there is always an outcome whereby they can circumvent our 
process and move to a Federal decisionmaker, which I think 
would be disruptive.
    In many cases our process, Mr. Chair, is longer than 1 
year.
    Mr. Kucinich. Mr. Hinchey, we are going to come back for 
another round of questions right after we return from votes, so 
the committee is in recess for approximately 45 minutes, and we 
will look forward to another round of questions.
    Thank you.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    We will go to Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    Mr. Koonce, I just have a couple other questions.
    In your testimony you mentioned the 2005 EPAct established 
reliability standards and that these standards are backed with 
substantial penal authority.
    Mr. Koonce. Yes.
    Mr. Davis of Virginia. Can you elaborate on these standards 
and how Virginia is faring in relation to them?
    Mr. Koonce. Yes, Congressman. First off, we have always 
operated our electric transmission system as if the standards 
were mandatory, even when they were voluntary prior to the 
Energy Policy Act, so we have always done the planning and done 
the operations of our system with that in mind. So, as a result 
of the Energy Policy Act and these reliability standards now 
being mandatory, we see effectively no change to our 
operations. We are compliant. We were compliant. So this move 
is one that we certainly welcome.
    In terms of the substantial penalty authority, the $1 
million per day tight fine, the most egregious tight fine, are 
fines associated with operating your system in a manner that 
could put its system and the neighboring systems in a blackout 
condition. That is obviously the most egregious. The other is 
the planning criteria that you use to plan for adequate 
reliability. Those are the two areas where there is the 
greatest potential for the largest fine.
    Mr. Davis of Virginia. OK. Mr. Miller, let me just get in 
with you and Mr. Koonce for a minute on the demand side 
management. In my opening testimony we talked about demand side 
management. That is an important part of the equation. Could 
you give us your vision, and then, Mr. Koonce, hear your vision 
on how we are dealing with this, because transmission authority 
is important, but that shouldn't be the only part of the 
equation, and I think under the law it is not.
    Mr. Miller. Well, I think generation, as well, could be a 
third leg of the stool.
    Mr. Davis of Virginia. Right.
    Mr. Miller. We have actually commissioned a study by Summit 
Blue of what opportunities exist in Virginia, and we asked them 
to look at Virginia and then a broader region, which is 
actually the service territory for PGM, which is Virginia, 
D.C., and Maryland.
    What they concluded is that there was so much low-hanging 
fruit in all three jurisdictions in terms of readily available 
investments that could be made to reduce demand and to do 
better load management that achieving 10 percent of reductions 
in that large area, which is over 3,000 megawatts, was 
achievable in a very short timeframe.
    I think that was the reason that we asked the General 
Assembly to consider and the Governor to make amendments to the 
re-regulation bill in Virginia so that the goal of a 10 to 15 
percent reduction within a very short period of time would be a 
statutory goal and included in the SEC's decisionmaking 
structure.
    Dominion actually opposed that amendment and offered, I 
think, much softer language that makes it sort of a study of 
whether it is possible, as opposed to a mandate.
    The second part of this is that these things can be done 
quite quickly. We have talked to Chairman Connelly in Fairfax 
County about, you know, what it would take to get 10 light 
bulbs changed at every residence in Fairfax County. That could 
have the effect of something on the order of 750 megawatts of 
demand reduction simply by changing lightbulbs. There are so 
many people there, there is so little that has been done 
previously, that in a matter of months you could reduce demand 
during peak hour by changing light bulbs.
    Mr. Davis of Virginia. Changing light bulbs? Seriously, I 
keep hearing that.
    Mr. Miller. But you have to do it in bulk. If we all change 
one, that isn't going to get us there, but if we all change 10, 
which is good economics, we could get there.
    Let me give you the math. Each light bulb that you change 
from 100 watt incandescent to a 23 watt compact fluorescent 
saves 75 watts. You multiply that by Dominion's 1.1 million 
customers in northern Virginia and you have 75 megawatts. You 
multiply that by 10 and it is 750 megawatts.
    Now, is that all at peak hour? That might be debatable, but 
it is still a real savings.
    The investment that would be required to do that is about 
$10 million, $1 a light bulb. For $10 million we could reduce 
demand by 750 megawatts, but instead we are going to look at a 
$250 million power line that will take 4 years to build.
    I just think that the opportunities in northern Virginia, 
throughout the region that is served by these proposals are so 
real and so under-developed that we have to look at them.
    Another one that is very important, another one where 
Dominion is falling short, is A/C cycling, air conditioning 
cycling. By comparison, NOVEC, which acts in the 11th District, 
has an aggressive program of encouraging customers to use A/C 
cycling. A third of their customers have had A/C cycling 
devices installed that allows the utility to switch off the 
compressor 7 minutes out of every half hour during the peak 
demand period, thereby reducing demand by nearly a third in 
most critical components. That service is not available from 
Dominion.
    Mr. Davis of Virginia. Thank you.
    Mr. Koonce, do you want to respond?
    Mr. Koonce. Yes, Congressman.
    We do think that it is a combination of transmission, 
generation, and energy conservation. All should play an equal 
part in providing for reliable infrastructure going forward.
    On the day that we filed the application for this 
transmission line, we also filed an application to install 300 
megawatts of clean natural gas peaking capacity in the region 
to support the region's continued growth. We also intend to 
work very closely with the State Corporation Commission, as has 
been called for by the recently enacted law, to identify all 
the measures that we can employ in order to conserve energy and 
to employ demand side management techniques.
    We currently have about 314 megawatts under demand side 
management programs. We have about 17,000 customers using time 
of use rates. We sell about 4 million megawatt hours under 
those time of use rates. But we are anxious to do more, and we 
think that the legislation that has been enacted that really 
required we stay on the sidelines and let retail merchants 
provide these services, we don't think that has worked, and we 
are anxious to work with the State Corporation Commission, with 
the Piedmont Environmental Council to identify those programs 
and put those programs in place.
    Mr. Davis of Virginia. Finally, let me ask about new 
generation. You have a North Anna plant that will be coming on 
in, what, 10 years; 5 years?
    Mr. Koonce. We are currently working on securing an early 
site permit for the North Anna plant. That is correct.
    Mr. Davis of Virginia. What will that mean to ability to 
deliver generation to the region? You will still have to 
transmit it?
    Mr. Koonce. No question. The discussion around North Anna, 
could be a plant as great as 1,500 megawatts. To unload a 1,500 
megawatt plant, unload it, and get the power to where it is 
needed will require some investment in infrastructure. We have 
looked at that. We think it is modest. But certainly when you 
build generation you have to also be prepared to construct the 
transmission to move that power to market.
    Mr. Davis of Virginia. OK. Thank you.
    Mr. Miller. Mr. Chairman.
    Mr. Davis of Virginia. Did you want to respond to that?
    Mr. Miller. Yes. I think there is some new facts that have 
also affected generation. The ruling that the Mirant plant can 
continue operations, both as a regulatory issue and as a land 
use issue, actually changes the scenario that these projects 
are being analyzed against. The assumption of PGM is that 
Mirant would be retired.
    There are other proposals for generation starting to move 
through the process. I think all those kinds of things have to 
be taken into account. Our concern always with this process so 
far is it is not clear how the Department of Energy is looking 
at the three, you know, major components. The decision on NIET 
corridors seems to be weighted toward a transmission-only 
analysis, not a balance of the different factors.
    Mr. Davis of Virginia. Good point. Thank you.
    Mr. Kucinich. I thank the gentleman.
    I would like to followup on a question that I had asked Mr. 
Koonce earlier.
    Mr. Koonce, in your earlier responses you seemed pretty 
proud that Dominion was spending, I think you said, $1.2 
billion on NO<INF>X</INF> and SO<INF>X</INF> reduction. For the 
record, we are talking about a reduction of sulfur dioxide and 
nitrogen oxides. That is known as NO<INF>X</INF>, sulfur 
dioxide known as SO<INF>X</INF> for short. Isn't it true that 
the 1.2 billion you have spent is pursuant to an EPA 
enforcement action against your company in 2003?
    Mr. Koonce. Mr. Chairman, the correct number is $1.7 
billion, but the question you asked is exactly correct. We did 
not pursue litigation with EPA. We reached an agreement with 
EPA to spend the money to improve the air quality in Virginia, 
and we feel like that has been rewarded by being able to get 
equipment and manpower in place earlier than many of our 
competitors who are still litigating in a much more expensive 
construction market. So yes, we were pursued by EPA. We did 
reach that agreement, and those expenditures have been made.
    Mr. Kucinich. All right. I thank the gentleman.
    Now, just out of curiosity, do you think you would have 
made that level of investment, in this case $1.2 billion 
pursuant to a consent agreement that was filed in Federal 
court, without the enforcement action that was taken?
    Mr. Koonce. I am not sure how to answer.
    Mr. Kucinich. You know, I just want to make sure that you 
have come before this committee and what you are saying is you 
are trying to be a good corporate citizen, and I think everyone 
appreciates that, but I also think that it is important for the 
record that we establish what incentivized you to be a good 
corporate citizen, and that the incentive was a threat of 
prosecution for the company violating laws by making major 
modifications to its power plants without installing equipment 
to control pollution that causes smog, acid rain, and soot, 
this according to a release by the Environmental Protection 
Agency which I am going to put into the record.
    And I say this not in any way to demean your efforts, but I 
really think that, as we proceed in this committee's 
investigation into the dynamics in the marketplace, that it is 
important for us to be entirely fact based, and at the same 
time it is absolutely true that the cooperation of Dominion in 
moving toward more effective efficiencies in the marketplace 
are mandatory, so that is why your presence here today is so 
important. But I wouldn't want anybody to leave this hearing 
with a misimpression as to what was one of the stimulating 
factors in the transit to a more effective expression of civic 
responsibility. I just want to express my gratitude to you.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    I want to thank the panel again for your patience during 
our vote.
    I have a question for the gentlemen from New York and 
Pennsylvania. I was thinking during the recess about what 
happens in terms of Federal preeminence to State policy 
decisions. I asked questions earlier about cost and I asked 
about trying to promote generation, but my question is this: if 
the State has a policy of protecting the environment or 
choosing one idea or one concept over another because it feels 
that it is environmentally more sound, does the fact that the 
Federal Government can come in and preempt and change that 
affect the planning for a State in the future?
    Mr. Tonko. I think it could. I think it is problematic. I 
think that, again, usurping States' rights in regard to such 
important matters and principles that are established is a 
negative outcome.
    I think it is very obviously, listening to the exchange 
here today, that we need to promote the kinds of partnerships 
amongst States that will enable them to foster the best 
outcomes for energy consumers. We need not to encourage 
pollution or taking the easy route, but rather encourage the 
binding of energy efficiency, which is our country's greatest 
resource, and allowing for outcomes that have a full continuum, 
a complement of activities going on that will express respect 
for the environment and strong energy outcomes for all 
categories of ratepayers. I think that, indeed, is important.
    Earlier we were asked about the heavy hand coming in if 
States don't do their thing or compacts if States don't do 
their thing. That is one approach. I think the better approach 
is to provide incentives for us to burn clean, to reduce carbon 
dioxide emissions, and to encourage efficiency. Building those 
incentives, rather than going to the extreme where you usurp 
State rights and perhaps deny them public policy, that should 
be their given opportunity and responsibility.
    Mr. DeWeese. It would be pretty difficult for me to amplify 
or burnish the remarks of the Honorable Energy Committee 
chairman from the Empire State.
    Mr. Arcuri. How about with respect to populations? I mean, 
if the State of Pennsylvania wanted to choose one route for a 
power line or, for instance, to bury a power line or to put it 
in a place where less people live, would the fact that the 
Federal Government can then come in and preempt and change that 
route affect Pennsylvania's ability to plan for the future?
    Mr. DeWeese. Yes, sir. No doubt about it. And if you check 
the map of Pennsylvania, the northern tier counties that abut 
New York State, which are in white--they are not even 
delineated with county lines because they are not involved in 
this discussion today--are very sparsely populated. In fact, 
most of the middle counties are sparsely populated.
    To invoke, although metaphorically, of course, that famous 
line from James Carvel, ``Pennsylvania is Philadelphia and 
Pittsburgh and Alabama in the middle,'' well, I think he was 
talking politically. I am going to talk population-wise. Most 
of our population is based in the southwest and the southeast, 
so the Pennsylvania Public Utility Commission I think could 
make much better decisions than, again, having the long arm of 
the Federal Government, FERC, Federal Energy Regulatory 
Commission, come in to the Keystone State and make these 
decisions for us.
    Mr. Arcuri. Mr. Tonko, would that apply to New York, as 
well?
    Mr. Tonko. Absolutely. You know, a lot of discussion today 
was focused on the NYRI line. That is a line that was proposed 
totally internal to New York State. There is no impact on other 
States. That tells me that the decision should rest with our 
State. We should be able to incorporate the logic, the thinking 
on the impact on rates, on economic recovery, for regional 
economies in our State. This is, I think, an overuse of power 
that just does not spell good public policy.
    Mr. Arcuri. In effect, the energy is for the most part 
produced in New York, run through New York, and consumed in New 
York----
    Mr. Tonko. Exactly.
    Mr. Arcuri [continuing]. Yet the Federal Government can 
come in and tell New York how to run its lines?
    Mr. Tonko. Right. I think it is wrong. Again, to repeat 
myself, there are better things that you can provide to the 
energy outcomes and to the environment outcomes of Americans by 
doing those incentives that encourage the addressing of 
reducing emissions of carbon dioxide and encouraging 
efficiency.
    Mr. Arcuri. Do you agree with that?
    Mr. DeWeese. The Greek philosopher Plato said that 
repetition is the first law of learning. I want to repeat one 
more time, apropos of your question, I believe that clean coal 
technology now and clean coal technology in the next 2, 4, 6, 8 
years will be such that we could construct power plants further 
toward the coast without as much challenge of air pollution, 
and Pennsylvania Coal, Ohio Coal, Kentucky Coal, Union Railroad 
workers, and so forth, would be favorably impacted.
    I don't think we need this big power line, and I think we 
can still have very, very beneficent impacts culturally, 
historically, economically, socially, and with the production 
of energy.
    I think, again, I represent coal miners and coal mining, 
and I really believe that we can build these power plants 
further east and still not suffer negative consequences.
    Mr. Arcuri. Chairman Adams, do you agree that the Federal 
Government should stay out of intrastate shipping of power, 
movement of power?
    Mr. Adams. You know, it is an interesting question because 
it is so foreign to New England context, but I am intrigued by 
that very question. The issue that you are grappling with on 
what a State ought to do is one piece of it that is 
extraordinary to me that is lost in the shuffle that I think my 
colleagues from the States understand, and that is, when you 
are studying a transmission line you spend a lot of time with 
neighbors talking about where the line ought to go. Should it 
go behind Oak Street or behind Pine Street? Maybe you put it 
under that river, and maybe you put it there. It is a long, 
painful, excruciating process for the utility, and it is 
supposed to be, because that is how a utility's business is 
supposed to work.
    If you move that forum out of the State regulatory bureau, 
you let PUCs off the hook. If we don't have to make a decision 
and we can't, we won't. Regulatory authorities like ours won't 
go down and sit with the communities and angry residents and 
make the difficult decisions. They won't go and stand up and do 
what we are supposed to do what we are paid by our ratepayers 
to do. We will pass the buck to the Federal Energy Regulatory 
Commission and those citizens will have a heck of a time making 
their interests known between Elm Street and Oak Street in 
Washington, DC.
    It is a profoundly important issue for just about every 
State.
    Mr. Arcuri. Thank you.
    Mr. Kucinich. The gentleman's time has expired.
    Mr. Arcuri. Thank you, sir.
    Mr. Kucinich. The Chair recognizes Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I thank all the witnesses for their testimony. I am sorry 
that scheduling conflicts prevented me from being here 
throughout the whole presentation, but I do want to ask some 
questions.
    I indicated in my opening comments that I was involved in 
the legislative process that developed the Energy Policy Act of 
2005. I identified many of the problems we have heard about 
today. In fact, I released a report in July 2005, that 
highlighted the problems this bill would pose for the States. 
Unfortunately, the House Republican leadership at the time just 
wasn't interested in addressing the problems.
    Frankly, section 1221 was included in the bill over my 
objections. It was one of the reasons I opposed the bill.
    Proponents of this provision dubbed it the back stop 
provision. The idea was that if States were unreasonably 
delaying the siting of a new transmission line, there would be 
a Federal backstop to ensure that needed infrastructure was 
able to be constructed on time.
    Chairman Tonko, I would like to ask you about this. Under 
section 1221, if a proponent of a transmission line doesn't 
serve end users within a State, the proponent can bypass the 
State altogether. Does that sound like a backstop against 
unreasonable delays?
    Mr. Tonko. I think it is interesting nomenclature, but 
basically it is preempting the powers of individual States 
which need to be able to work within the context of their own 
State and get things done. I think it is going to be very 
difficult to broker some of the outcomes if they know that 
there is a way to circumvent that process, as just was alluded 
to by Chairman Adams.
    Mr. Waxman. Yes.
    Mr. Tonko. I think that when you have that given obstacle 
in the path of this process, it produces strong challenges for 
any State.
    As was mentioned earlier today, some of these lines 
proposed, their impact is totally within defined territory of 
States, so they need to have that power, they need to have that 
decisionmaking process, and no sort of threats to them that 
eventually someone could opt out to another decisionmaker that 
will be doing that in a vacuum. And FERC would be doing that 
decisionmaking in a far more greater vacuum.
    I also think that comprehensive plans are important here 
and they need to be implemented and we need to give States that 
authority and that ability. I think that comprehensive quality 
is important to look at all these elements of energy policy 
that will help reduce cost or reduce pollution or reduce 
dependency on fossil-based fuels.
    Mr. Waxman. Talking about proposals that are completely 
within a State, New York is considering a proposal for a line 
that is nearly 200 miles in length, and this would essentially 
be a new permanent feature through the heart of the State. I 
assume there are many issues to address. Do you think that 
having 1 year as section 1221 provides a State to deal with the 
project is a reasonable thing for the State to do?
    Mr. Tonko. I think the timeframe of 1 year is troublesome 
and problematic.
    Mr. Waxman. Yes.
    Mr. Tonko. I think that certainly some projects have been 
resolved within the confines of 1 year. Some haven't. I think 
the flexibility is important, and I think that also there is 
that murkiness of when the clock really begins ticking. I think 
the definition of that timeframe is not solid enough, and 1 
year limiting something that may be a good line--there are 
transmission lines that States may want to incorporate, and if 
they are lost in the process because of this artificial 
restriction that is imposed in the process, that is not 
helpful.
    Mr. Waxman. So it is your view that this is not really a 
back stop authority. That is more rhetoric than reality. What 
it is is trumping the authority of the State and giving the 
energy companies the upper hand because they can go right to 
the Feds after the State?
    Mr. Tonko. Right. Well, earlier I was asked if the Feds 
should step in if States or an individual State does not do its 
right thing, does not put together the good energy outcome. 
There are far better things to do--encourage partnership among 
States, enabling people to address those seams between ISOs, 
perhaps providing resources for switching technology that will 
allow the avoidance of some of the outcomes of the Ohio/New 
York experience of 2003.
    There are many things that can be done. Try the incentives 
for cleaning up pollution out there or providing incentives for 
energy efficiency, but don't bring in the heavy hand that can 
disrupt the thought process and the planning process that is 
driven by a State or a compilation of States that should be 
their opportunity. I find it troublesome that we would have 
that happen.
    Mr. Waxman. Thank you very much.
    Mr. Adams, do you agree with those comments?
    Mr. Adams. I absolutely do. To his point, one of the most 
fascinating issues to me as an economic regulator about this 
whole area of law is DOE has really punted on the question of 
who pays, the economic relationship between building a 
transmission line and the cost to certain consumers on a 
variety of different respects and the incentives that develops.
    As the issues start moving forward, the idea of planning 
and getting economic signals right to create incentives is 
completely lost in the middle to build transmission lines. It 
seems to me that the economic incentives ought to be driving 
what gets built, as opposed to building what we can.
    Mr. Waxman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    I yield myself 5 minutes.
    The question that arises here that is a result of some of 
the colloquy I had earlier, should the Feds step in in the 
event of disputes within a State or between the States, I don't 
know if that is the right question, because I think the 
question which gives rise to this committee meeting is: should 
the utilities have such a broad reach into planning and siting 
and basically setting energy policy without consulting with the 
States, because what this section of the law did, essentially, 
I think, in reading it, was to go a long way toward nullifying 
the States' abilities to be able to enter into the 
decisionmaking process because, in effect, what 1221 does is it 
trumps a lot of States' powers.
    I don't know if any States' attorneys general have filed 
any action to raise questions relative to this, but, you know, 
absent a congressional remedy, there might be some 
constitutional issues here that haven't been appropriately 
addressed.
    I would like to ask Chairman Tonko and also Representative 
DeWeese, once the Department of Energy designates a 
transmission corridor, energy companies can get their projects 
approved by the Federal Government at the level of the Federal 
Energy Regulatory Commission. Since we have State legislators 
with us, I would like to explore the wisdom of this policy and 
how it might affect States.
    Representative DeWeese, in your testimony you stated that 
Pennsylvania's agricultural land preservation program had 
preserved over 300,000 acres of farmland in 53 counties. Do you 
have any reason to think that the Federal Energy Regulatory 
Commission here in Washington, DC, understands the nuances of 
Pennsylvania's farmland preservation policies?
    Mr. DeWeese. No, sir, Mr. Chairman, I do not, and I think 
that the sharing that my colleague from Maine offered 10 or 15 
minutes ago to me was the most telling aspect of today's 
hearing. I believe it was Congressman Murphy from Connecticut 
who said that after repeated supplications FERC refused to go 
up to Connecticut for a hearing. If that is their degree of 
casuality and nonchalance when the U.S. Congressmen and others 
are asking them to make a visit and to explicate their policy, 
I think they would be comparatively cavalier and disregard 
those of us who are trying to alter the power line for 
Allegheny Energy in Pennsylvania. I think that the farmland 
preservation dynamic apropos of your question specifically 
would be on the far periphery, if available for their thought 
process at all.
    Mr. Kucinich. Thank you. Thank you very much.
    Chairman Tonko, the administration has taken a very 
different approach to global climate change than New York. For 
example, New York and other States sued the EPA for denying a 
petition to regulate greenhouse gases.
    Mr. Tonko. Yes.
    Mr. Kucinich. Obviously, the States just won in the Supreme 
Court and the White House lost. Do you see any reason to 
believe that the Federal Energy Regulatory Commission is 
committed to seeing New York's greenhouse gas reduction program 
succeed?
    Mr. Tonko. Not really. I think this whole approach really 
denies or delays progressive thinking, a new realm of thinking 
in the energy policy area. It is taking us back into the same 
old traditions, the status quo, and I think this country is 
sadly in need of progressive energy policy, and the way to do 
it is to, again, have a full complement of responses in a 
comprehensive energy strategy, in a planning concept, and this 
disrupts that opportunity to implement that planning. I think 
it is wrong, I think it is hurtful, it is harmful, and it 
certainly holds back on a progressive, proactive order of 
policy creation and implementation.
    Mr. Kucinich. Thank you very much.
    To Ms. Merritt, why is Section 106 of the National Historic 
Preservation Act important to corridor designation? Can you 
explain that for members of the committee?
    Ms. Merritt. Well, section 106, like NEPA, would provide a 
mechanism for looking at alternatives that could be less 
harmful to historic properties. And, like NEPA, it can be 
implemented programmatically by looking broadly at the kinds of 
resources that could be harmed. But if it is done after the 
fact, after corridor designation is also completed, then the 
options for minimizing or avoiding harm to historic resources 
are extremely limited, and, because of the magnitude of the 
infrastructure involved in these projects, very little can be 
done at that point to try to mitigate harm to historic 
properties.
    Mr. Kucinich. So is it your understanding that the 
Department of Energy doesn't want to take into account historic 
resources before designating transmission corridors?
    Ms. Merritt. They have made no indication that they intend 
to comply with section 106 prior to designating new corridors.
    Mr. Kucinich. Is there a public policy rationale for that?
    Ms. Merritt. Well, it is our understanding that they intend 
to comply with section 106 after the corridors are designated, 
but at that point our view is that meaningful alternatives will 
be foreclosed.
    Mr. Kucinich. Well, we are going to look forward to hearing 
from the Department of Energy in the next panel.
    We have come to the time where we have asked sufficient 
questions of the members of the panel. I would just like, 
because of the importance that each member of this panel has, I 
would like to give you approximately 1 minute, if you want to 
make a final statement before you leave. If you don't want to, 
that is OK.
    Chairman.
    Mr. Tonko. So many things have been said here today, and I 
have repeated myself a few times only because of the importance 
of the message. But where the Feds do not provide for 
progressive orders of thinking, let the States or compacted 
States be those laboratories of change. Let them exercise their 
rights to really bring about sound energy policy, environmental 
policy that will allow us now to come to a new realm of 
thinking that will help us revitalize the regional economies of 
so many areas of this country.
    Mr. Kucinich. Representative DeWeese.
    Mr. DeWeese. Very succinctly, sir, I would just say that 
1221, the most malignant section of that act of 2005, be 
eliminated by congressional action, and that we return the 
power of the States to the States. I believe that is an ethos 
that both Republicans and Democrats can embrace prospectively, 
notwithstanding this temporary mischief.
    This is a wrong-headed, rickety 2005 action by the 
Congress, and my polite admonition would be that you change it, 
sir.
    Thank you.
    Mr. Kucinich. Thank you.
    Mr. Adams.
    Mr. Adams. Thank you.
    Maine is a potential site for over 1,000 megawatts of new 
generation. In a non-CO<INF>2</INF> environment that we are 
heading into for generation, Maine is potentially the Saudi 
Arabia of New England for the purposes of non-CO<INF>2</INF> 
generation.
    The problem with this particular statute is, if preemption 
is forced in a way that is not consistent with Maine's 
interests, Maine does not have an incentive to site that 
generation that New England needs to help reduce CO<INF>2</INF> 
emissions.
    I would look forward to watching your deliberations 
carefully.
    Mr. Kucinich. Thank you very much.
    Ms. Merritt.
    Ms. Merritt. I would just like to echo the concerns 
expressed by the other panel members of the importance of 
making changes to section 1221. You have heard a lot about the 
problems with the law as it is written now, and it has really 
got to be addressed.
    Mr. Kucinich. Mr. Koonce.
    Mr. Koonce. Mr. Chairman, I appreciate having the 
opportunity to participate in this discussion. I recognize that 
my views are in the minority, but I appreciate the way I have 
been treated today and I appreciate being here. Thank you.
    Mr. Kucinich. You are welcome, Mr. Koonce. And I want to 
say that we could not have this hearing without you, because we 
really need to get all of the elements in this discussion, and 
we are going to continue to want to engage you and other people 
in the industry. We appreciate it.
    Mr. Miller.
    Mr. Miller. One thing I would like to add is that, you 
know, the act as it is currently constituted does recognize 
that there are certain lands that really deserve permanent 
protection, the national park system and the national wildlife 
refuge, land that is acquired with Federal dollars through the 
Land and Water Conservation Fund.
    Unfortunately, what that ignores is that east of the 
Mississippi the way that we have pursued land conservation and 
protection of national priorities, be they battlefields, be 
they historic sites, is through public-private partnerships, 
and those are conservation easements. Private individuals, 
State government, and Federal Government has invested billions 
of dollars into trying to get those lands preserved, and this 
act would disregard all of those actions and allow for Federal 
condemnation of those very values. That has to be changed.
    Mr. Kucinich. I appreciate that very much. We have 
concluded our first panel.
    This is the Subcommittee on Domestic Policy, Committee on 
Oversight and Government Reform. This is a hearing on Federal 
electric transmission corridors. I am Congressman Kucinich, the 
chairman of the committee. We are pleased to have with us the 
ranking Republican on the full committee, Mr. Davis, as well as 
our colleague, Mr. Arcuri.
    I want to thank all members of the panel for being here. We 
are going to be continuing this discussion. We will look 
forward to all of you presenting any ideas that you have about 
more effective energy policies, and also ideas with respect to 
1221. Thank you, and the first panel is dismissed.
    We will move immediately to the gentleman who constitutes 
the second panel. We are going to have to move right to the 
second panel here because of the business of the committee. If 
anyone has any other business inside the room, I would ask that 
you take it outside, because we do want to proceed.
    Our next witness will be Kevin Kolevar. He is the Director 
of the Office of Electricity Delivery and Energy Reliability 
for the U.S. Department of Energy, and he will testify at this 
hearing on Federal electric transmission corridors, 
consequences for public and private property. I want to welcome 
Mr. Kolevar.
    I would ask that you stand.
    [Witness sworn.]
    Mr. Kucinich. Let the record show that the witness has been 
duly sworn and has answered in the affirmative.
    Welcome. Please proceed.

  STATEMENT OF KEVIN KOLEVAR, DIRECTOR, OFFICE OF ELECTRICITY 
     DELIVERY AND ENERGY RELIABILITY, DEPARTMENT OF ENERGY

    Mr. Kolevar. Thank you, Mr. Chairman, Ranking Member Davis, 
members of the committee, for the opportunity to testify before 
you today on the Department of Energy's statutory authority 
under section 1221(a) of the Energy Policy Act of 2005 
regarding national interest electric transmission corridors.
    Today the availability of and access to electricity is 
something that most Americans take for granted, even though it 
is vital to nearly every aspect of our lives.
    As our Nation's economy continues to grow, consumers' 
demand for more electricity will steadily increase. In fact, 
even when accounting for advances in energy efficiency, the 
Energy Information Administration estimates that by the year 
2030 U.S. electricity consumption will increase by 43 percent 
from the 2005 level.
    Our future electricity needs will only be met through a 
combination of options, such as new generation, transmission, 
advanced technologies, demand response programs, and improved 
efficiency. That said, perhaps the greatest challenge will be 
developing the appropriate network of wires and other 
facilities to reliably and responsibly deliver electricity.
    The Office of Electricity Delivery and Energy Reliability 
was assigned the responsibility of executing many of the 
provisions in title 12 of EPAct. Specifically, EPAct amended 
the Federal Power Act by adding a new section, 216(a). The act 
now required that ``not later than 1 year after the date of 
enactment of this section, and every 3 years thereafter, the 
Secretary of Energy, in consultation with affected States, 
shall conduct a study of electric transmission congestion.''
    In accordance with that law, Mr. Chairman, on August 8, 
2006, DOE published the first National Electric Transmission 
Congestion Study. During the development of the study, the 
Department provided numerous opportunities for discussion and 
comments by States, regional planning organizations, industry, 
and the general public, as required by section 216(a). Outreach 
included conference calls with States to request suggestions 
and relevant information, notice of inquiry explaining the 
Department's intended approach for the study and inviting 
comment, and a public technical conference to address the 
questions presented in the notice of inquiry.
    In addition to these efforts, the Department held numerous 
meetings with State officials and participated in regional 
conferences across the Nation.
    The congestion study defines congestion as the condition 
that occurs when transmission capacity is not sufficient to 
enable safe delivery of all scheduled or desired wholesale 
electricity transfers simultaneously.
    In analyzing transmission congestion, the Department 
identified congestion and other related concerns through two 
approaches: first, the Department conducted a thorough review 
of recent reliability studies and transmission expansion plans 
conducted by regional reliability councils, regional 
transmission organizations, independent system operators, and 
sub-regional transmission planning groups. Altogether, the 
Department reviewed 65 studies and related documents for the 
eastern interconnection and 38 for the western interconnection.
    Second, DOE developed projections for both the eastern and 
western interconnections using industry transmission planning 
models.
    Based on this data, the congestion study identifies 
existing, projected, and potential congestion and reliability 
problems in different parts of the country.
    The first category, critical congestion areas, is comprised 
of two large, economically vital, and heavily populated areas 
that have widespread existing or potentially severe congestion. 
These two geographic regions are in southern California and the 
Atlantic coastal area from New York City to northern Virginia.
    A second group, congestion areas of concern, consists of 
four areas where a large-scale congestion problem exists or may 
be emerging but that aren't as critical or longstanding.
    And the third area, conditional congestion areas, consists 
of areas where congestion is not acute at present but where 
congestion would become so if large amounts of new electric 
generation were to be built without associated transmission 
capacity.
    The Department invited and received over 400 public 
comments on the findings of the congestion study and has posted 
all of the comments it has received on its Web site.
    Section 216(a) also requires that ``after considering 
alternatives and recommendations from interested parties, 
including an opportunity for comment from affected States, the 
Secretary shall issue a report based on the study which may 
designate any geographic area experiencing electric energy 
transmission capacity constraints or congestion that adversely 
affects consumers as a national interest electric transmission 
corridor. However, prior to issuing a report that designates 
any national corridor, the Department will first issue a draft 
designation to allow affected States, regional entities, and 
the general public additional opportunities for review and 
comment.''
    Following an appropriate comment period on a draft 
designation, the Department would decide whether the 
designation of a corridor is, in fact, warranted. The Secretary 
is expected to release his decision with respect to draft 
national corridor designations very soon.
    With the enactment of section 216(a), Congress gave the 
Federal Government the new responsibility of identifying 
electric congestion and its causes. The Department takes this 
new rule seriously, and we will execute the letter and the 
spirit of the law conscientiously with the Nation's best 
interest in mind.
    This concludes my statement, Mr. Chairman. I look forward 
to answering any of your questions and those of your 
colleagues.
    [The prepared statement of Mr. Kolevar follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. The Chair recognizes Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    Do you think that section 1221 of the EPAct weakens the 
power of the States over the authorization of transmission 
lines?
    Mr. Kolevar. I don't believe it weakens the power of the 
States. It does present another opportunity for application to 
be made to the FERC should a company not be able to reach 
agreement with a State on a proposed transmission route.
    Siting has long been the province of the States. That 
doesn't change by virtue of section 216(a) of the Federal Power 
Act. It does provide one more opportunity for another entity to 
hear arguments in favor of building new transmission.
    Mr. Davis of Virginia. I wonder if, in fact, what happens 
to an elected public service commission, whether it be elected 
or something, whether at this point they can't more easily go 
the populist route, reject it, knowing there is a backup, and 
let FERC make the decision.
    Mr. Kolevar. That is a legitimate argument, and I know the 
first panel made comment to that. I have heard both sides of 
that. I have heard a number of commissioners that insist they 
will do their job, they will do the job that they were elected 
to do. I am of the view that is the way that most of these 
situations will be handled.
    Is it possible that there are situations where some 
commissioners wash their hands of it and just decide that they 
are going to say ``no'' but, wink-wink, there is an 
understanding it will go up to the FERC for consideration.
    Mr. Davis of Virginia. I guess we will find out.
    Mr. Kolevar. I can't predict whether that will happen.
    Mr. Davis of Virginia. Let me ask you this. Since this is 
new for FERC, since we are just getting established, in fact, 
we are just getting the probable lines established later this 
week, what do you foresee, what circumstances would you foresee 
FERC considering an application from a utility after they have 
applied at the State level? Would they have to exhaust all 
their appeals at the State level first?
    Mr. Kolevar. Right.
    Mr. Davis of Virginia. And once the issue is raised to FERC 
level, would the utility then be able to disregard State laws 
such as consideration of wetlands, historic sites, and so on, 
or do you think the FERC would take those into account?
    Mr. Kolevar. This is a very important point, Congressman. 
And I do appreciate the opportunity to testify on this, because 
there are, in my opinion, a number of misperceptions with 
respect to section 216(a) that ought to be addressed.
    To your point, section 216(a) in no way allows a scenario 
by which the FERC would be able to permit a line and through 
permit of that line have the authorities of imminent domain 
conveyed to any federally owned lands, to any State owned 
lands. That means Federal parks, that means State parks, for 
example, that means schools, to the extent that some schools 
are owned by State lands.
    But the FERC authorities with respect to Federal imminent 
domain are very limited and, of course, in addition to those 
limitations, they are only empowered when considering 
application within a national corridor.
    It is worth noting that State unions with respect to 
imminent domain are much more robust. A State can route a line 
through a State-owned park if it chooses. A State could run a 
line through a school yard if it so chooses. There are good 
reasons for doing neither.
    My opinion is that federally elected officials, Federal 
Governmental officials appreciate the reasons for not doing 
something in a sensitive area for the very reasons that a State 
official would.
    It is also the case that there are a number of permits that 
will, in all situations, have to be received by an applicant 
prior to ultimate permission of a line, notwithstanding a FERC 
decision to permit a line. By way of example, the very same 
authorities that we are talking about here--that is, FERC 
authority to allow for imminent domain on transmission lines--
this is precisely the very same authority that FERC enjoys 
today with respect to certificating natural gas lines, and FERC 
has enjoyed this authority since section 7 of the Natural Gas 
Act was passed in 1938, 69 years. There was significant 
precedent for this kind of action.
    Mr. Davis of Virginia. So you think that precedent could--
--
    Mr. Kolevar. It will, sir. Not to filibuster your time. To 
get to the point of that, notwithstanding a FERC permit for a 
line to go through, the permitee will still be required to 
secure, where applicable, permits for section 404, when 
proposing to cross wetlands, permits from State agencies that 
administer the Clean Water Act----
    Mr. Davis of Virginia. How about historic sites?
    Mr. Kolevar [continuing]. The Clean Air Act, and Coastal 
Zone Management Act.
    Mr. Davis of Virginia. How about historic sites?
    Mr. Kolevar. I will report back on historic sites, because 
I am not aware of----
    Mr. Kucinich. Without objection, the committee would like 
to enlist your report.
    Mr. Kolevar. Yes, sir, I will respond.
    Mr. Davis of Virginia. Finally, just a quick question, the 
NIET corridors that are going to be, we think, coming out maybe 
this week, do you have any idea what they are going to be? Are 
they going to be very general? How specific will they be? Any 
thoughts on that?
    Mr. Kolevar. They are coming out very soon, and the 
Secretary has not announced his decision and I cannot----
    Mr. Davis of Virginia. You wouldn't want to scoop him on 
that, would you?
    Mr. Kolevar. No, sir.
    Mr. Davis of Virginia. OK. Give us an exclusive here? OK. 
Thank you.
    Mr. Kucinich. I thank the gentleman. I just want to 
followup on that.
    The pending proposals for early designation cover an 
expansive territory. They propose corridors in New York, New 
Jersey, Pennsylvania, Virginia, Louisiana, Oklahoma, 
California, North Carolina, Ohio, West Virginia, Maryland. That 
is about right, isn't it?
    Mr. Kolevar. Yes, 10 or 11.
    Mr. Kucinich. OK. When will the Department act on these 
requests for early designation?
    Mr. Kolevar. The Department has already indicated that it 
would not act on those requests. If I could take a moment, sir, 
to give the background so that you understand the context 
behind that----
    Mr. Kucinich. I understand the context. What I want to 
know, though, is that, I am sure you know, these proposed 
transmission corridors are causing an uproar.
    Mr. Kolevar. Yes, sir.
    Mr. Kucinich. We have received testimony that the 
administration has refused to share the data it is using to 
determine transmission congestion. What I want to know, can you 
commit today that the Department will address all the concerns 
you have heard today prior to designating any transmission 
corridor?
    Mr. Kolevar. I think yes, sir, I will, and the reason we 
will do that is precisely because the Department has taken an 
extra step and inserted an extra step into this process that we 
were not bound to by virtue of the statute. In November of last 
year the Department announced that prior to any final 
designation, that should the Secretary decide to move forward 
on designations, the next release would be a draft.
    I have indicated that action by the Secretary is imminent. 
That action will be with respect to draft national corridors. 
When that happens, a 60 day comment period will go into effect 
and this agency will work aggressively to seek consultation 
with all affected parties, and so there will be opportunities 
for all interested parties, certainly all affected parties, to 
present their point of view and opinions and recommendations to 
the Department.
    Mr. Kucinich. I thank the gentleman.
    With unanimous consent, I would introduce into the record 
the testimony of National Parks Conservation Association and 
the testimony of the National Association of State Utility 
Consumer Advocates, without objection.
    Final question to Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    Thank you, sir, for being here. I will move quickly. We 
don't have a lot of time left.
    You indicated that the purpose of 1221 was to ease 
congestion, and you talked about areas like New York and Los 
Angeles. I take it areas like Chicago, Houston, Dallas, Denver 
are areas of congestion that the Department of Energy is 
concerned with?
    Mr. Kolevar. Yes, sir.
    Mr. Arcuri. All right. And does the potential for the 
creation of energy corridors exist throughout the country?
    Mr. Kolevar. Well, the Department has to come back every 3 
years and update the study, so----
    Mr. Arcuri. My question is, do they exist universally 
throughout the country, the continental United States?
    Mr. Kolevar. Congestion?
    Mr. Arcuri. No, the ability to create the corridors. Are 
there any places that are exempt?
    Mr. Kolevar. That authority would convey upon a report that 
found congestion and constraints causing congestion----
    Mr. Arcuri. Well, if there was congestion found in Houston 
or Dallas, would the FERC corridor be allowed to run a corridor 
through the State of Texas?
    Mr. Kolevar. Oh, I see your point. No, sir. That is not 
covered by this.
    Mr. Arcuri. It has been exempted out, the State of Texas; 
is that correct?
    Mr. Kolevar. It sure has.
    Mr. Arcuri. All right. And do you know why the State of 
Texas has exempted out?
    Mr. Kolevar. No, sir, I don't.
    Mr. Arcuri. OK. So basically what happens to the citizens 
in New York, the Federal Government feels that the Department 
of Energy can make the decisions for the people of New York but 
not for the people of Texas?
    Mr. Kolevar. Congressman, I am bound to act within the 
confines of the statute. This is the way that the Congress put 
the statute into effect.
    Mr. Arcuri. I take it that the only time you can put a 
corridor in is when there is a demonstrated need?
    Mr. Kolevar. When there is a finding of congestion and/or 
constraints causing congestion.
    Mr. Arcuri. Who determines when that need is demonstrated?
    Mr. Kolevar. The Department, through virtue of the 
congestion study.
    Mr. Arcuri. What if an area like New York City is in need 
of power? Who determines where the corridor should be located 
to meet that need? Is it a private company that stands to reap 
a hefty profit, or would it be placed in a place where it was 
most convenient for the citizens?
    Mr. Kolevar. To be clear, are you talking about a line that 
is----
    Mr. Arcuri. A corridor.
    Mr. Kolevar. OK, because a corridor is defined in the 
statute as a geographic region.
    Mr. Arcuri. Who decides where to put the corridor?
    Mr. Kolevar. The Department of Energy after appropriate 
consultation and public input.
    Mr. Arcuri. And would they look into the fact that there 
would be a private company that would want to run a line in a 
particular area?
    Mr. Kolevar. No.
    Mr. Arcuri. They would not?
    Mr. Kolevar. No.
    Mr. Arcuri. That would not be in their consideration if a 
private company had a plan already in place to run a line in a 
particular area?
    Mr. Kolevar. No, it is not part of the criteria that we are 
bound to consider in making a needs determination and 
identifying a problem.
    Mr. Arcuri. Thank you, sir.
    Mr. Kucinich. I want to thank the gentleman. Thank you very 
much.
    Thank you very much. I want to thank the witness for his 
patience. The committee members may have some followup 
questions they will submit in writing.
    This has been a hearing of the Domestic Policy Subcommittee 
of the Oversight and Government Reform Committee. It has been a 
hearing on the national interest electric transaction 
corridors.
    I want to thank all those who have participated.
    I am Dennis Kucinich, Chair of the committee, and the 
committee stands adjourned.
    Thank you.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
